OFFICE OF AUDIT                                 2013-FO-0002
FINANCIAL AUDITS DIVISION
WASHINGTON, DC




               Federal Housing Administration
                 Fiscal Years 2012 and 2011
                 Financial Statement Audit




2013-FO-0002                              NOVEMBER 9, 2012
                                                                 Issue Date: November 9, 2012

                                                                 Audit Report Number: 2013-FO-0002




TO:                Carol Galante, Acting Assistant Secretary for Housing – FHA Commissioner, H

                     /s/
FROM:              Thomas R. McEnanly, Director, Financial Audit Division, GAF


SUBJECT:           Audit of the Federal Housing Administration’s Financial Statements for Fiscal
                   Years 2012 and 2011


    In accordance with the Government Corporation Control Act as amended (31 U.S.C. 9105),
the Office of Inspector General engaged the independent certified public accounting firms of
CliftonLarsonAllen LLP (CLA) to audit the fiscal year 2012 and Clifton Gunderson LLP1 to
audit the fiscal year 2011 financial statements of the Federal Housing Administration (FHA).
The contracts required that the audit be performed according to Generally Accepted Government
Auditing Standards (GAGAS).

    In connection with the contract, we reviewed CLA’s report and related documentation and
inquired of its representatives. Our review, as differentiated from an audit in accordance with
U.S. GAGAS, was not intended to enable us to express, and we do not express, opinions on
FHA’s financial statements or internal controls or conclusions on compliance with laws and
regulations. CLA is responsible for the attached Independent Auditor’s Report dated November
9, 2012 and the conclusions expressed in the report. Our review disclosed no instances where
CLA did not comply, in all material respects, with U.S. GAGAS.

    This report includes both the Independent Auditors’ Report and FHA’s principal financial
statements. Under Federal Accounting Standards Advisory Board (FASAB) standards, a general-
purpose federal financial report should include as required supplementary information (RSI) a
section devoted to Management’s Discussion and Analysis (MD&A) of the financial statements
and related information. The MD&A is not included with this report. FHA plans to separately
publish an annual report for fiscal year 2012 that conforms to FASAB standards.

    The report contains one significant deficiency in FHA’s internal control and one reportable
instance of non-compliance with laws and regulations. The report contains four new
recommendations. Within 120 days of the report issue date, FHA is required to provide its final
management decision which includes the corrective action plan for each recommendation. As
part of the audit resolution process, we will record four new recommendation(s) in the
Department’s Audit Resolution and Corrective Action Tracking system (ARCATS). We will also
1
    In early 2012, Clifton Gunderson LLP merged with another firm and became CliftonLarsonAllen LLP.
                                                                                   2013-FO-0002

endeavor to work with FHA to reach a mutually acceptable management decision prior to the
mandated deadline. The proposed management decision and corrective action plans will be
reviewed and evaluated for OIG concurrence.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   Within 60 days of this report, CLA expects to issue a separate letter to management dated
November 9, 2012 regarding other matters that came to its attention during the audit.

    We appreciate the courtesies and cooperation extended to the CLA and OIG audit staffs
during the conduct of the audit. If you have any questions or comments about this report, please
do not hesitate to call me at 202-402-8216.




                                                2
                                   2013-FO-0002




(THIS PAGE LEFT BLANK INTENTIONALLY)




                 3
                                                                                                                   2013-FO-0002




                                                  Table of Contents

OIG Transmittal Memorandum .......................................................................................................1

Independent Auditor’s Report..........................................................................................................6

   Appendix A: Management’s Response ....................................................................................12

   Appendix B: CLA’s Assessment of Management’s Response ................................................14

   Appendix C: Status of Prior Year Recommendations ...............................................................15

Principal Financial Statements .......................................................................................................17

   Consolidated Balance Sheet .......................................................................................................19

   Consolidated Statements of Net Cost .........................................................................................20

   Consolidated Statement of Changes in Net Position ..................................................................21

   Combined Statements of Budgetary Resources .........................................................................22

   Notes to the Financial Statements ..............................................................................................24

   Required Supplementary Information ........................................................................................72




                                                                   5
                                   2013-FO-0002




(THIS PAGE LEFT BLANK INTENTIONALLY)




                 5
                                                                                       2013-FO-0002

                                                                             CliftonLarsonAllen LLP

                                                                             www.cliftonlarsonallen.com




                           INDEPENDENT AUDITOR’S REPORT


Inspector General
United States Department of Housing and Urban Development

Acting Commissioner
Federal Housing Administration

We have audited the accompanying balance sheets of the Federal Housing Administration
(FHA) as of September 30, 2012 and 2011, and the related statements of net cost and changes
in net position, and the combined statements of budgetary resources (“financial statements”) for
the years then ended. The objective of our audit was to express an opinion on the fairness of
these financial statements. In connection with our audit, we also considered the internal control
over financial reporting and considered FHA’s compliance with laws and regulations. In our
audit, we found:

      The financial statements are presented fairly, in all material respects, in conformity with
       accounting principles generally accepted in the United States of America (U.S.);
      One significant deficiency in internal control over financial reporting (including
       safeguarding of assets) and compliance with laws and regulations; and
      One instance of reportable noncompliance with selected provisions of laws and
       regulations tested.

The following sections and Exhibits A through C discuss in more detail: (1) these conclusions,
(2) our conclusions on Management’s Discussion and Analysis (MD&A), and other required
supplementary information included in the Annual Management Report, (3) our responsibility for
the audit, (4) management’s responsibility for the financial statements, (5) FHA’s response and
our evaluation of their response, and (6) the current status of prior year findings and
recommendations.

Opinion on the Financial Statements

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of FHA as of September 30, 2012 and 2011, and its net costs; changes in
net position; and budgetary resources for the years then ended in conformity with accounting
principles generally accepted in the U.S.

As discussed in Note 6 to the financial statements, the Loan Guarantee Liability (LGL) is an
actuarially determined estimate of the net present value of future claims, net of premiums and
recoveries, from loans insured as of the end of the fiscal year. This estimate is developed using
econometric models that integrate historical loan-level program and economic data with regional

                                                 6
                                                                                      2013-FO-0002

                       INDEPENDENT AUDITORS’ REPORT (Continued)


house price appreciation forecasts to develop assumptions about future portfolio performance.
This year’s estimate is the mean value from a series of projections using numerous economic
scenarios. This stochastic analysis projects a 25% probability that the Single Family Liability for
Loan Guarantee may be overstated by $8 billion or understated by $7.5 billion, depending on
which economic outcome ultimately prevails. This forecast method helps control the risk that the
estimate will be affected by an adverse economic scenario but does not reduce the risk that the
models may not accurately reflect current borrower behavior or contain technical errors.

As also discussed in Note 6, the MMI Fund includes a Capital Reserve account from which
increases in funding to cover additional claim losses have historically been drawn. As of
September 30, 2012, this Capital Reserve account had less funds available than the MMI Fund
FY2012 upward reestimate. The Credit Reform Act of 1990 provides for permanent, indefinite
budget authority to fund such deficiencies. However, the amount of funds to be transferred from
the Capital Reserve account to the MMI Financing Fund will be determined by the FY2013
annual budgeting process. The transfer amount may differ from the amount reported in the
financial statements due to differences in the requirements of the budget process and the
different timing of the calculation. Once determined, the funds will be transferred in the latter half
of FY2013. The budgeting process may also consider projected excess subsidy from FY2013
endorsements deposited into the Capital Reserve account in determining whether permanent,
indefinite budget authority will be required to fund the FY2012 reestimate transfer.

Report on Internal Control

In planning and performing our audit, we considered FHA’s internal control over financial
reporting and compliance (internal control) as a basis for designing our auditing procedures and
to comply with the Office of Management and Budget (OMB) audit guidance for the purpose of
expressing our opinion on the financial statements, but not for the purpose of expressing an
opinion on the effectiveness of FHA’s internal control. Accordingly, we do not express an
opinion on the effectiveness of FHA’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect and correct misstatements on a timely basis. A material weakness is a
deficiency or a combination of deficiencies in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis.

Our consideration of internal control was for the limited purpose described in the preceding
paragraph and was not designed to identify all deficiencies in internal control that might be
significant deficiencies or material weaknesses. We did not identify any deficiencies in internal
control that we consider to be material weaknesses. However, we identified one deficiency in
internal control, described below, that we consider to be a significant deficiency. A significant
deficiency is a control deficiency, or combination of deficiencies in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance.

     FHA Management and HUD OCIO Should Mitigate Persistent IT Control Deficiencies



                                                  7
                                                                          2013-FO-0002

              INDEPENDENT AUDITORS’ REPORT (Continued)


FHA has over forty individual information technology (IT) applications including
one core financial system and fifteen mixed financial systems. Those applications
use a mix of old and new software languages (from COBOL to Cold Fusion) that
are connected to each other, customers, and FHA’s core financial general ledger
through hundreds of electronic interfaces. To manage this complex application
environment, the Office of Housing (Housing), which owns and operates FHA
applications, has implemented expensive and manual compensating controls,
including monthly reconciliations of data among the interfaced systems to ensure
the reliability of its day-to-day financial transaction processing and reporting.

For many years, we (and the HUD OIG) have reported various weaknesses in
security and access controls, as well as in configuration management and
contingency planning. These issues have been found not only in FHA
applications, but also in the general support systems owned by the Office of the
Chief Information Officer (OCIO). HUD IT policy defines roles and responsibilities
for Executive IT Investment Owners as well as for individual “system owners”,
who manage the operations and security of the individual applications. The day-
to-day management of the FHA portfolio of financial systems has been
performed by the Office of Systems and Technology under the Office of the
Comptroller, but the lack of such an Executive IT Investment Owner has
contributed to the ineffective and untimely remediation of application control
weaknesses and repeat deficiencies identified across multiple applications.

During the past year, OCIO implemented a new IT portfolio structure that
grouped applications into “investments” according to their functions. Each
investment was aligned to a functional business “Segment.” Each Segment is
lead by a Segment Sponsor at an executive level. This new structure has the
potential to provide the needed strategic IT management.

The operational and systemic limitations discussed above impact Housing’s
ability to ensure FHA systems “continue to operate in an effective and efficient
manner” and support Housing’s “changing business practices” as required by
OMB Circular No. A-127, Financial Management Systems and the Federal
Manager’s Financial Integrity Act of 1982 (FMFIA). These control deficiencies
and system limitations also affect FHA’s overall information security that could
ultimately affect the reliability of FHA’s financial reporting.

We recommend that the Assistant Secretary for Housing:

   1a. Work with the HUD Chief Information Officer to continue the development
       of the IT portfolio management structure, establish clear roles and
       responsibilities for remediating the identified control deficiencies in
       Housing’s applications, and monitor the effectiveness of that structure in
       managing IT investments. (New)
   1b. Assign a Housing representative to oversee and report on the
       remediation of control deficiencies in general support systems that affect
       Housing systems and data. (New)



                                        8
                                                                                  2013-FO-0002

                     INDEPENDENT AUDITORS’ REPORT (Continued)


          1c. Clarify the future role of Housing’s Office of Risk Management and
              Assessment with regard to the IT risk assessment process for FHA
              applications. (New)

       We recommend that the HUD Chief Information Officer:

          1d. Assign a senior OCIO manager to document the plan of action and to
              provide regular status reports on the progress toward mitigation of the
              outstanding control deficiencies reported for the general support systems
              and the applications affecting Housing data. (New)

Report on Compliance and Other Matters

In connection with our audit, we performed tests of FHA’s compliance with certain provisions of
laws and regulations. The results of our tests disclosed one instance of noncompliance that is
required to be reported in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States or OMB Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements, as amended (OMB Bulletin 07-04). However, the objective of our
audit was not to provide an opinion on compliance with laws and regulations. Accordingly, we
do not express such an opinion.

       Capital Ratio: The Cranston-Gonzales National Affordable Housing Act of 1990
       required that FHA’s Mutual Mortgage Insurance (MMI) Fund maintain a minimum
       level of capital sufficient to withstand a moderate recession. This capital
       requirement, termed the Capital Ratio, is defined as capital resources (assets
       minus current liabilities) less the liability for future claim costs (net of future
       premiums and recoveries), divided by the value of amortized insurance-in-force.
       The Act requires FHA to maintain a minimum Capital Ratio of two percent and
       conduct an annual independent actuarial study to, among other things, calculate
       this ratio. The Housing and Economic Recovery Act of 2008 requires that the
       Secretary submit a report annually to the Congress describing the results of the
       study, assess the financial status of the MMI Fund, recommend program
       adjustments, and to evaluate the quality control procedures and accuracy of
       information used in the process of underwriting loans guaranteed by the MMI
       Fund. As of the date of our audit, this report had not yet been submitted to
       Congress, but preliminary FHA data indicated that this ratio remained
       substantially below the required two percent throughout FY2012.

We noted certain matters that we will report to FHA management in a separate letter.

Status of Prior Year’s Control Deficiencies and Noncompliance Issues

As required by Government Auditing Standards and OMB Bulletin 07-04, we have reviewed the
status of FHA’s corrective actions with respect to the findings and recommendations included in
the prior year’s Independent Auditors’ Report, dated November 3, 2011. Exhibit C provides the
current status of prior year findings and recommendations.



                                               9
                                                                                            2013-FO-0002

                        INDEPENDENT AUDITORS’ REPORT (Continued)


Other Information

Accounting principles generally accepted in the U.S. require that FHA’s Management
Discussion and Analysis (MD&A) and other required supplementary information be presented to
supplement the financial statements. Such information, although not a part of the financial
statements, is required by the Federal Accounting Standards Advisory Board who considers it to
be an essential part of financial reporting for placing the financial statements in an appropriate
operational, economic, or historical context. We have applied certain limited procedures to the
MD&A and required supplementary information in accordance with auditing standards generally
accepted in the U.S., which consisted of inquiries of management about the methods of
preparing the information and comparing the information for consistency with management's
responses to our inquiries, the financial statements, and other knowledge we obtained during
our audit of the financial statements. We do not express an opinion or provide any assurance on
the information because the limited procedures do not provide us with sufficient evidence to
express an opinion or provide any assurance.

Management’s Responsibility for the Financial Statements

FHA management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the United States, (2) designing, implementing, and
maintaining internal control to provide reasonable assurance that the broad control objectives of
the FMFIA are met, (3) ensuring that FHA’s financial management systems substantially comply
with the Federal Financial Management Improvement Act (FFMIA) requirements, and (4)
complying with other applicable laws and regulations.

Auditor’s Responsibility

We are responsible for conducting our audit in accordance with auditing standards generally accepted in
the U.S.; the standards applicable to the financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and OMB Bulletin 07-04. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are presented fairly, in all material respects, in conformity with accounting principles generally
accepted in the U.S. We are also responsible for: (1) obtaining a sufficient understanding of internal
control over financial reporting and compliance to plan the audit, (2) testing compliance with selected
provisions of laws and regulations that have a direct and material effect on the financial statements and
laws for which OMB Bulletin 07-04 requires testing, and (3) performing limited procedures with respect
to certain other information appearing in the Annual Management Report.

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence supporting the
amounts and disclosures in the financial statements; (2) assessed the appropriateness of the
accounting policies used and the reasonableness of significant estimates made by
management; (3) evaluated the overall presentation of the financial statements; (4) obtained an
understanding of FHA and its operations, including its internal control related to financial
reporting (including safeguarding of assets) and compliance with laws and regulations (including
execution of transactions in accordance with budget authority); (5) evaluated the effectiveness
of the design of internal control; (6) tested the operating effectiveness of relevant internal
controls over financial reporting and compliance, (7) considered the design of the process for
evaluating and reporting on internal control and financial management systems under FMFIA;


                                                     10
                                                                                    2013-FO-0002

                      INDEPENDENT AUDITORS’ REPORT (Continued)


and (8) tested compliance with selected provisions of certain laws. The procedures selected
depend on the auditors’ judgment, including our assessment of risks of material misstatement of
the financial statements, whether due to fraud or error. We believe we obtained sufficient and
appropriate audit evidence on which to base our opinion.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
the FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements due to error or
fraud, losses, or noncompliance may nevertheless occur and not be detected. We also caution
that projecting our audit results to future periods is subject to risk that controls may become
inadequate because of changes in conditions or that the degree of compliance with controls
may deteriorate. In addition, we caution that our internal control testing may not be sufficient for
other purposes.
We did not test compliance with all laws and regulations applicable to FHA. We limited our tests
of compliance to selected provisions of laws and regulations that have a direct and material
effect on the financial statements and those required by OMB Bulletin 07-04 that we deemed
applicable to FHA’s financial statements for the fiscal year ended September 30, 2012. We
caution that noncompliance with laws and regulations may occur and not be detected by these
tests and that such testing may not be sufficient for other purposes.

Agency Comments and our Evaluation

Management’s response to our report is presented in Exhibit A. We did not audit FHA’s
response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of FHA management, HUD, the HUD
Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be, and should not be, used by anyone other than these
specified parties.




Arlington, Virginia
October 29, 2012




                                                11
                                 2013-FO-0002


Federal Housing Administration
   Management’s Response
         Appendix A




              12
                                 2013-FO-0002


Federal Housing Administration
   Management’s Response
   Appendix A (Continued)




              13
                                                                                2013-FO-0002


                     Federal Housing Administration
                CLA’s Assessment of Management Response
                              Appendix B

We reviewed FHA management’s response (see Exhibit A) to the findings and
recommendations made in connection with our audit of FHA’s 2012 financial statements. We did
not perform audit procedures on the response to the findings and recommendations and
accordingly, we express no opinion on it. Our assessment of management’s response is
discussed below.

Assessment of management’s response to significant deficiency:

As indicated in Exhibit A, FHA management concurred with our finding and recommendations
1a through 1c, but did not provide specific information regarding planned corrective actions or
the information needed to assess whether management will be able to effectively implement the
recommendations.

Recommendation 1d is addressed to HUD’s Chief Information Officer who concurred with the
recommendation but did not provide specific information regarding planned corrective actions or
the information needed to assess whether management will be able to effectively implement the
recommendation.

Assessment of management’s response to noncompliance with the Cranston-Gonzales
National Affordable Housing Act of 1990:

FHA management did not specifically respond to this finding. However, management is well
aware of this issue.




                                              14
                                                                          2013-FO-0002


                      Federal Housing Administration
                   Status of Prior Year Recommendations
                                 Appendix C

Our assessment of the current status of the recommendations related to significant
deficiencies identified in the prior year audit is presented below:

                                                                        Fiscal Year
             FY 2011 Recommendation                           Type
                                                                        2012 Status
    1a. Work with OCIO to develop a process to Significant            Closed
        analyze identified systems control weaknesses Deficiency
        for their root causes.                        2011
    1b. Work with OCIO to strengthen the POA&M process Significant    Closed
        by ensuring that the status of plans is reviewed Deficiency
        regularly by FHA and HUD management with the 2011
       authority to take action or accept the risks related
       to the weakness.
    1c. Develop and implement procedures for FHA Significant          Closed
        senior management to acknowledge and Deficiency
        accept system risks that cannot be mitigated 2011
        within the fiscal year.




                                             15
                                   2013-FO-0002




(THIS PAGE LEFT BLANK INTENTIONALLY)




                 16
                          2013-FO-0002




FEDERAL HOUSING ADMINISTRATION
        FISCAL YEAR 2012
           FINANCIAL
          STATEMENTS




              17
                                   2013-FO-0002




(THIS PAGE LEFT BLANK INTENTIONALLY)




                 18
                                                                                       2013-FO-0002

                     FEDERAL HOUSING ADMINISTRATION
     (AN AGENCY OF THE DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT)
                       CONSOLIDATED BALANCE SHEETS
                         As of September 30, 2012 and 2011
                                (Dollars in Millions)


                                                                         FY 2012           FY 2011
ASSETS
  Intragovernmental
    Fund Balance with U.S. Treasury (Note 3)                         $      47,640     $      42,006
    Investments (Note 4)                                                     2,775             4,135
    Other Assets (Note 7)                                                        3                 3
  Total Intragovernmental                                            $      50,418     $      46,144

  Investments (Note 4)                                           $              60     $          63
  Accounts Receivable, Net (Note 5)                                             24                32
  Loans Receivable and Related Foreclosed Property, Net (Note 6)             5,441             5,460
  Other Assets (Note 7)                                                         60                69
TOTAL ASSETS                                                     $         56,003      $     51,768

LIABILITIES
  Intragovernmental
   Accounts Payable (Note 8)                                         $           6     $           -
   Borrowings from U.S. Treasury (Note 9)                                   11,527             6,032
   Other Liabilities (Note 10)                                               3,473             3,051
  Total Intragovernmental                                            $      15,006     $       9,083

  Accounts Payable (Note 8)                                          $         721     $         723
  Loan Guarantee Liability (Note 6)                                         54,984            36,103
  Debentures Issued to Claimants (Note 9)                                        -                10
  Other Liabilities (Note 10)                                                  396               430
TOTAL LIABILITIES                                                    $     71,107      $     46,349

NET POSITION
  Unexpended Appropriations (Note 16)                                $          862    $         850
  Cumulative Results of Operations                                          (15,966)           4,569
TOTAL NET POSITION                                                         (15,104)    $      5,419

TOTAL LIABILITIES AND NET POSITION                                   $     56,003      $     51,768

                 The accompanying notes are an integral part of these statements




                                               19
                                                                                    2013-FO-0002

                 FEDERAL HOUSING ADMINISTRATION
(AN AGENCY OF THE DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT)
              CONSOLIDATED STATEMENTS OF NET COST
              For the Periods Ended September 30, 2012 and 2011
                              (Dollars in Millions)

                                                                 FY 2012        FY 2011
Single Family Forward
 Intragovernmental Gross Costs                               $          327     $      274
 Less: Intragovernmental Earned Revenue                               2,608          1,426
 Intragovernmental Net Costs                                         (2,281)        (1,152)

 Gross Costs With the Public                                         15,455         7,246
 Less: Earned Revenues                                                   50            25
 Net Costs With the Public                                           15,405         7,221
Single Family Forward Net Cost (Surplus)                     $      13,124      $   6,069

HECM
 Intragovernmental Gross Costs                               $          52      $      48
 Less: Intragovernmental Earned Revenue                                477            631
 Intragovernmental Net Costs                                          (425)          (583)


 Gross Costs With the Public                                          8,159         (1,626)
 Less: Earned Revenues                                                     5            1
 Net Costs With the Public                                            8,154         (1,627)
HECM Net Cost (Surplus)                                      $       7,729      $ (2,210)


Multifamily/Healthcare
 Intragovernmental Gross Costs                               $             85   $      89
 Less: Intragovernmental Earned Revenue                                    28          49
 Intragovernmental Net Costs                                               57          40

 Gross Costs With the Public                                 $       (1,244)    $  (1,029)
 Less: Earned Revenues                                                   58            47
 Net Costs With the Public                                           (1,302)       (1,076)
Multifamily/Healthcare Net Cost (Surplus)                    $      (1,245)     $ (1,036)

Administrative and Contracts
 Intragovernmental Gross Costs                               $             29   $      22
 Less: Intragovernmental Earned Revenue                                     -           -
 Intragovernmental Net Costs                                               29          22

 Gross Costs With the Public                                           660           674
 Less: Earned Revenues                                                   -             -
 Net Costs With the Public                                             660           674
Adminstrative and Contracts Net Cost (Surplus)               $        689       $    696

Net Cost of Operations                                       $      20,297      $   3,519

            The accompanying notes are an integral part of these statements.




                                            20
                                                                                         2013-FO-0002

                        FEDERAL HOUSING ADMINISTRATION
       (AN AGENCY OF THE DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT)
               CONSOLIDATED STATEMENTS OF Changes in NET POSITION
                     For the Periods Ended September 30, 2012 and 2011
                                     (Dollars in Millions)


                                         FY 2012     FY 2012       FY 2011     FY 2011
                                        Cumulative                Cumulative
                                        Results of Unexpended     Results of Unexpended
                                        Operations Appropriations Operations Appropriations

BEGINNING BALANCES                      $      4,569     $        850     $      6,761              880

Budgetary Financing Sources
 Appropriations Received (Note 16)                  -              983                   -         3,311
 Other Adjustments (Note 16)                        -              (24)                  3           (25)
 Appropriations Used (Note 16)                    875             (875)              3,244        (3,244)
 Transfers-Out (Note 15 and Note 16)             (395)             (72)               (492)          (72)

Other Financing Sources
 Transfers In/Out (Note 15)                      (481)              -            (1,229)            -
 Imputed Financing (Note 12)                       15               -                18             -
 Other                                           (252)              -              (217)
Total Financing Sources                 $       (238)    $         12     $      1,327              (30)

Net (Cost) Surplus of Operations             (20,297)                -          (3,519)             -

ENDING BALANCES                         $    (15,966)    $        862     $      4,569        $     850

                  The accompanying notes are an integral part of these statements.




                                                21
                                                                                                                       2013-FO-0002

                           FEDERAL HOUSING ADMINISTRATION
           (AN AGENCY OF THE DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT)
                     COMBINED STATEMENT OF BUDGETARY RESOURCES
                             For the Period Ended September 30, 2012
                                       (Dollars in Millions)

                                                                                                       FY 2012          FY 2012       FY 2012
                                                                                                      Budgetary      Non-Budgetary     Total
Budgetary Resources:
Unobligated balance brought forward, October 1                                                              5,565           36,249        41,814
Unobligated balance brought forward, October 1, as adjusted                                                 5,565           36,249        41,814
Recoveries of prior year unpaid obligations                                                                    26              122           148
Other changes in unobligated balance (+ or -)                                                                (276)               -          (276)
Unobligated balance from prior year budget authority, net                                                   5,315           36,371        41,686
Appropriations (discretionary and mandatory)                                                                  912                -           912
Borrowing authority (discretionary and mandatory)                                                               -            5,760         5,760
Spending authority from offsetting collections (discretionary and mandatory)                               12,737           34,329        47,066
Total budgetary resources                                                                                  18,964           76,460        95,424

Status of Budgetary Resources:
Obligations incurred                                                                                       14,890           36,185        51,075
Unobligated balance, end of year:
   Apportioned                                                                                                 59           18,346        18,405
   Unapportioned                                                                                            4,015           21,929        25,944
Total unobligated balance, end of year                                                                      4,074           40,275        44,349
Total budgetary resources                                                                                  18,964           76,460        95,424

Change in Obligated Balance:
Unpaid obligations, brought forward, October 1 (gross)                                                        737            2,320         3,057
Uncollected customer payments from Federal sources, brought forward, October 1 (-)                            (20)              (1)          (21)
Obligated balance, start of year (net), before adjustments (+ or -)                                           717            2,319         3,036
Obligated balance, start of year (net), as adjusted                                                           717            2,319         3,036
Obligations incurred                                                                                       14,890           36,185        51,075
Outlays (gross) (-)                                                                                       (14,868)         (35,911)      (50,779)
Change in uncollected customer payments from Federal sources (+ or -)                                          18                1            19
Recoveries of prior year unpaid obligations (-)                                                               (26)            (122)         (148)
Unpaid obligations, end of year (gross)                                                                       733            2,472         3,205
Uncollected customer payments from Federal sources, end of year                                                (2)               -            (2)
Obligated balance, end of year (net)                                                                          731            2,472         3,203

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                                                      13,649           40,089        53,738
Actual offsetting collections (discretionary and mandatory) (-)                                           (12,766)         (34,595)      (47,361)
Change in uncollected customer payments from Federal sources (discretionary and mandatory) (+ or -)            18                1            19
Budget authority, net (discretionary and mandatory)                                                           901            5,495         6,396
Outlays, gross (discretionary and mandatory)                                                               14,868           35,911        50,779
Actual offsetting collections (discretionary and mandatory) (-)                                           (12,766)         (34,595)      (47,361)
Outlays, net (discretionary and mandatory)                                                                  2,102            1,316         3,418
Less Distributed offsetting receipts (-)                                                                    2,611                -         2,611
Agency outlays, net (discretionary and mandatory)                                                            (509)           1,316           807



                              The accompanying notes are an integral part of these statements




                                                                        22
                                                                                                                       2013-FO-0002

                           FEDERAL HOUSING ADMINISTRATION
           (AN AGENCY OF THE DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT)
                     COMBINED STATEMENT OF BUDGETARY RESOURCES
                             For the Period Ended September 30, 2011
                                       (Dollars in Millions)


                                                                                                       FY 2011          FY 2011       FY 2011
                                                                                                      Budgetary      Non-Budgetary     Total
Budgetary Resources:
Unobligated balance brought forward, October 1                                                              5,257           34,649        39,906
Unobligated balance brought forward, October 1, as adjusted                                                 5,257           34,649        39,906
Recoveries of prior year unpaid obligations                                                                    84               26           110
Other changes in unobligated balance (+ or -)                                                                (227)             (16)         (243)
Unobligated balance from prior year budget authority, net                                                   5,114           34,659        39,773
Appropriations (discretionary and mandatory)                                                                3,239                4         3,243
Borrowing authority (discretionary and mandatory)                                                               -            3,838         3,838
Spending authority from offsetting collections (discretionary and mandatory)                                8,165           25,316        33,481
Total budgetary resources                                                                                  16,518           63,817        80,335

Status of Budgetary Resources:
Obligations incurred                                                                                       10,952           27,569        38,521
Unobligated balance, end of year:
   Apportioned                                                                                                222           13,170        13,392
   Unapportioned                                                                                            5,344           23,078        28,422
Total unobligated balance, end of year                                                                      5,566           36,248        41,814
Total budgetary resources                                                                                  16,518           63,817        80,335

Change in Obligated Balance:
Unpaid obligations, brought forward, October 1 (gross)                                                        772            1,891         2,663
Uncollected customer payments from Federal sources, brought forward, October 1 (-)                            (24)               -           (24)
Obligated balance, start of year (net), before adjustments (+ or -)                                           748            1,891         2,639
Obligated balance, start of year (net), as adjusted                                                           748            1,891         2,639
Obligations incurred                                                                                       10,952           27,569        38,521
Outlays (gross) (-)                                                                                       (10,904)         (27,113)      (38,017)
Change in uncollected customer payments from Federal sources (+ or -)                                           4               (1)            3
Recoveries of prior year unpaid obligations (-)                                                               (84)             (26)         (110)
Unpaid obligations, end of year (gross)                                                                       736            2,321         3,057
Uncollected customer payments from Federal sources, end of year                                               (20)              (1)          (21)
Obligated balance, end of year (net)                                                                          716            2,320         3,036

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                                                      11,404           29,158        40,562
Actual offsetting collections (discretionary and mandatory) (-)                                            (8,169)         (27,869)      (36,038)
Change in uncollected customer payments from Federal sources (discretionary and mandatory) (+ or -)             4               (1)            3
Budget authority, net (discretionary and mandatory)                                                         3,239            1,288         4,527
Outlays, gross (discretionary and mandatory)                                                               10,904           27,113        38,017
Actual offsetting collections (discretionary and mandatory) (-)                                            (8,169)         (27,869)      (36,038)
Outlays, net (discretionary and mandatory)                                                                  2,735             (756)        1,979
Less Distributed offsetting receipts (-)                                                                    1,033                -         1,033
Agency outlays, net (discretionary and mandatory)                                                           1,702             (756)          946



                             The accompanying notes are an integral part of these statements.




                                                                        23
                                                                                        2013-FO-0002


               NOTES TO THE FINANCIAL STATEMENTS
                                       September 30, 2012

Note 1. Significant Accounting Policies

Entity and Mission

The Federal Housing Administration (FHA) was established under the National Housing Act of 1934 and
became a wholly owned government corporation in 1948 subject to the Government Corporation Control
Act (31 U.S.C. § 9101 et seq.), as amended. While FHA was established as a separate Federal entity, it
was subsequently merged into the Department of Housing and Urban Development (HUD) when that
department was created in 1965. FHA does not maintain a separate staff or facilities; its operations are
conducted, along with other Housing activities, by HUD organizations. FHA is headed by HUD's
Assistant Secretary for Housing/Federal Housing Commissioner, who reports to the Secretary of HUD.
FHA's activities are included in the Housing section of the HUD budget.

FHA administers a wide range of activities to make mortgage financing more accessible to the home-
buying public and to increase the availability of affordable housing to families and individuals,
particularly to the nation's poor and disadvantaged. FHA insures private lenders against loss on
mortgages, which finance Single Family homes, Multifamily projects, health care facilities, property
improvements, manufactured homes, and reverse mortgages, also referred to as Home Equity Conversion
Mortgages (HECM). The objectives of the activities carried out by FHA relate directly to developing
affordable housing.

FHA categorizes its insurance programs as Single Family (including Title 1), Multifamily and HECM.
Single Family activities support initial or continued home ownership; Title I activities support
manufactured housing and property improvement. Multifamily activities support high-density housing
and medical facilities. HECM activities support reverse mortgages which allow homeowners 62 years of
age or older to convert the equity in their homes into lump sum or monthly cash payments without having
to repay the loan until the loan terminates.

FHA supports its insurance operations through five funds. The Mutual Mortgage Insurance fund (MMI),
FHA's largest fund, provides basic Single Family mortgage insurance and is a mutual insurance fund,
whereby mortgagors, upon non-claim termination of their mortgages, share surplus premiums paid into
the MMI fund that are not required for operating expenses and losses or to build equity. The Cooperative
Management Housing Insurance fund (CMHI), another mutual fund, provides mortgage insurance for
management-type cooperatives. The General Insurance fund (GI), provides a large number of specialized
mortgage insurance activities, including insurance of loans for property improvements, cooperatives,
condominiums, housing for the elderly, land development, group practice medical facilities, nonprofit
hospitals, and reverse mortgages. The Special Risk Insurance fund (SRI) provides mortgage insurance on
behalf of mortgagors eligible for interest reduction payments who otherwise would not be eligible for
mortgage insurance. Activities related to most Single Family programs, including HECM, endorsed in
Fiscal Year 2009 and going forward, are in the MMI fund. The Single Family activities in the GI fund
from Fiscal Year 2008 and prior remain in the GI fund. The HOPE for Homeowners (H4H) program
began on October 1, 2008 for Fiscal Year 2009 as a result of The Housing and Economic Recovery Act of
2008. This legislation required FHA to modify existing programs and initiated the H4H program and
fund.



                                                  24
                                                                                          2013-FO-0002

For the Loan Guarantee Program at FHA, in both the MMI/CMHI and GI/SRI funds there are Single
Family and Multifamily activities. The H4H fund only contains Single Family activity.

To comply with the FHA Modernization Act of 2008, activities related to most Single Family programs,
including HECM and Condominiums (Section 234(c)), endorsed in Fiscal Year 2009 and going forward,
are now in the MMI fund. The Single Family activities in the GI fund from Fiscal Year 2008 and prior
remain in the GI fund. The following table illustrates how the primary Single Family program activities
for FHA are now distributed between MMI/CMHI and GI/SRI funds based on the year of endorsement:

     Fund           Loans Endorsed in Fiscal Years           Loans Endorsed in Fiscal Years
                           2008 and Prior                          2009 and Onward
      GI                   234(c), HECM                                   N/A
     MMI                       203(b)                            203(b), 234(c), HECM

In fiscal year 2010, FHA received appropriations for the Energy Innovation and Transformation Initiative
programs. The Energy Innovation program is intended to promote innovations in the residential energy
efficiency sector that have the ability to be replicated and to help create a standardized home energy
efficient retrofit market. The appropriation for the Transformation Initiative is for combating mortgage
fraud.

Basis of Accounting

The principal financial statements are presented in conformity with accounting principles generally
accepted in the United States of America (GAAP) applicable to Federal agencies as promulgated by the
Federal Accounting Standards Advisory Board (FASAB). The recognition and measurement of
budgetary resources and their status for purposes of preparing the Combined Statements of Budgetary
Resources (SBR), is based on concepts and guidance provided by Office of Management and Budget
(OMB) Circular A-11, Preparation, Submission, and Execution of the Budget and the Federal Credit
Reform Act of 1990. The format of the SBR is based on the SF 133, Report on Budget Execution and
Budgetary Resources.

Basis of Consolidation

The accompanying principal financial statements include all Treasury Account Fund Symbols (TAFSs)
designated to FHA, which consist of principal program funds, revolving funds, general funds and a
deposit fund. All inter-fund accounts receivable, accounts payable, transfers in and transfers out within
these TAFSs have been eliminated to prepare the consolidated balance sheets, statements of net cost, and
statements of changes in net position. The SBR is prepared on a combined basis as required by OMB
Circular A-136, Financial Reporting Requirements, Revised.

Fund Balance with U.S. Treasury

Fund balance with U.S. Treasury consists of amounts collected from premiums, interest earned from
Treasury, recoveries and appropriations. The balance is available to fund payments for claims, property
and operating expenses and of amounts collected but unavailable until authorizing legislation is enacted
(see Notes 2 and 3).




                                                   25
                                                                                             2013-FO-0002

Investments

FHA investments include investments in U.S. Treasury securities, multifamily risk sharing debentures
and investments in private-sector entities where FHA is a member with other parties under the
Accelerated Claims Disposition Demonstration program (see Note 4).

Under current legislation, FHA invests available MMI/CMHI capital reserve fund resources in excess of
its current needs in non-marketable market-based U.S. Treasury securities. These U.S. Treasury
securities may not be sold on public securities exchanges, but do reflect prices and interest rates of similar
marketable U.S. Treasury securities. Investments are presented at acquisition cost net of the amortized
premium or discount. Amortization of the premium or discount is recognized monthly on investments in
U.S. Treasury securities using the interest method in accordance with the Statement of Federal Financial
Accounting Standards (SFFAS) No. 1 Accounting for Selected Assets and Liabilities, paragraph 71.

Multifamily Risk Sharing Debentures [Section 542(c)] is a program available to lenders where the lender
shares the risk in a property by issuing debentures for the claim amount paid by FHA on defaulted insured
loans.

Credit Reform Accounting

The Federal Credit Reform Act (FCRA) established the use of program, financing, general fund receipt
and capital reserve accounts to separately account for transactions that are not controlled by the
Congressional budget process. It also established the liquidating account for activity relating to any loan
guarantees committed and direct loans obligated before October 1, 1991 (pre-Credit Reform). These
accounts are classified as either Budgetary or Non-Budgetary in the Combined Statements of Budgetary
Resources. The Budgetary accounts include the program, capital reserve and liquidating accounts. The
Non-Budgetary accounts consist of the credit reform financing accounts.

In accordance with the SFFAS No. 2, Accounting for Direct Loans and Loan Guarantees, the program
account receives and obligates appropriations to cover the subsidy cost of a direct loan or loan guarantee
and disburses the subsidy cost to the financing account. The program account also receives
appropriations for administrative expenses. The financing account is a Non-Budgetary account that is
used to record all of the cash flows resulting from Credit Reform direct loans, assigned loans, loan
guarantees and related foreclosed property. It includes loan disbursements, loan repayments and fees,
claim payments, recoveries on sold collateral, borrowing from the U.S. Treasury, interest, negative
subsidy and the subsidy cost received from the program account.

The general fund receipt account is used for the receipt of amounts paid from the GI/SRI financing
account when there is negative subsidy from the original estimate or a downward reestimate. The receipt
account is a general fund receipt account and amounts are not earmarked for the FHA’s credit programs.
They are available for appropriations only in the sense that all general fund receipts are available for
appropriations. Any assets in this account are non-entity assets and are offset by intragovernmental
liabilities. At the beginning of the following fiscal year, the fund balance in the general fund receipt
account is transferred to the U.S. Treasury general fund. Negative subsidy and downward reestimates in
the MMI/CMHI fund are transferred to the Capital Reserve account.

The liquidating account is used to record all cash flows to and from FHA resulting from pre-Credit
Reform direct loans or loan guarantees. Liquidating account collections in any year are available only for
obligations incurred during that year or to repay debt. Unobligated balances remaining in the GI and SRI
liquidating funds at year-end are transferred to the U.S. Treasury’s general fund. Consequently, in the
event that resources in the GI/SRI liquidating account are otherwise insufficient to cover the payments for


                                                     26
                                                                                           2013-FO-0002

obligations or commitments, the FCRA provides that the GI/SRI liquidating account can receive
permanent indefinite authority to cover any resource shortages.

In FY 2011, FHA began reporting on a second general fund receipt account. This receipt account is used
for the unobligated balance transferred from the GI/SRI liquidating account and loan modifications.
Similar to the general fund receipt account used for the GI/SRI negative subsidy and downward
reestimates, the amounts in this account are not earmarked for FHA’s credit programs and are returned to
Treasury at the beginning of the next fiscal year. Any assets in this account are non-entity assets and are
offset by intragovernmental liabilities.

Loans Receivable and Related Foreclosed Property, Net

FHA’s loans receivable include mortgage notes assigned (MNA), also described as Secretary-held notes,
purchase money mortgages (PMM), and notes related to partial claims. Under the requirements of the
FCRA, PMM notes are considered to be direct loans while MNA notes are considered to be defaulted
guaranteed loans. The PMM loans are generated from the sales on credit of FHA’s foreclosed properties
to qualified non-profit organizations. The MNA notes are created when FHA pays the lenders for claims
on defaulted guaranteed loans and takes assignment of the defaulted loans for direct collections. In
addition, Multifamily and Single Family performing notes insured pursuant to Section 221(g)(4) of the
National Housing Act may be assigned automatically to FHA at a pre-determined point. Partial claims
notes arise when FHA pays a loss mitigation amount to keep a borrower
current on their loan. FHA, in turn, records a loan receivable which takes a second position to the
primary mortgage.

In accordance with the FCRA and SFFAS No. 2, Credit Reform direct loans, defaulted guaranteed loans
and related foreclosed property are reported at the net present value of expected cash flows associated
with these assets, primarily estimated proceeds less selling and maintenance costs. The difference
between the cost of these loans and property and the net present value is called the Allowance for
Subsidy. Pre-Credit Reform loans receivable and related foreclosed property in inventory are recorded at
net realizable value which is based on recovery rates net of any selling expenses (see Note 6).

Loan Guarantee Liability

The net potential future losses related to FHA’s central business of providing mortgage insurance are
reflected in the Loan Guarantee Liability in the consolidated balance sheets. As required by SFFAS No.
2, the Loan Guarantee Liability includes the Credit Reform related Liabilities for Loan Guarantees (LLG)
and the pre-Credit Reform Loan Loss Reserve (LLR) (see Note 6).

The LLG is calculated as the net present value of anticipated cash outflows and cash inflows. Anticipated
cash outflows include lender claims arising from borrower defaults, (i.e., claim payments), premium
refunds, property costs to maintain foreclosed properties arising from future defaults and selling costs for
the properties. Anticipated cash inflows include premium receipts, proceeds from asset sales and
principal and interest on Secretary-held notes.

FHA records loss estimates for its Single Family LLR (includes MMI and GI/SRI) to provide for
anticipated losses incurred (e.g., claims on insured mortgages where defaults have taken place but claims
have not yet been filed). Using the net cash flows (cash inflows less cash outflows), FHA computes an
estimate based on conditional claim rates and loss experience data, and adjusts the estimate to incorporate
management assumptions about current economic factors.




                                                    27
                                                                                           2013-FO-0002

FHA records loss estimates for its Multifamily LLR (includes CMHI and GI/SRI) to provide for
anticipated outflows less anticipated inflows. Using the net present value of claims less premiums, fees,
and recoveries, FHA computes an estimate based on conditional claim rates, prepayment rates, and
recovery assumptions based on historical experience.

Use of Estimates

The preparation of the principal financial statements in conformity with GAAP requires management to
make estimates and assumptions that affect the reported amounts of assets and liabilities, the disclosure of
contingent assets and liabilities as of the date of the financial statements, and the reported amounts of
revenues and expenses during the reporting period. Actual results may differ from those estimates.

Amounts reported for net loans receivable and related foreclosed property and the Loan Guarantee
Liability represent FHA’s best estimates based on pertinent information available.

To estimate the Allowance for Subsidy associated with loans receivable and related to foreclosed property
and the liability for loan guarantees (LLG), FHA uses cash flow model assumptions associated with loan
guarantee cases subject to the Federal Credit Reform Act of 1990 (FCRA), as described in Note 6, to
estimate the cash flows associated with future loan performance. To make reasonable projections of
future loan performance, FHA develops assumptions, as described in Note 6, based on historical data,
current and forecasted program and economic assumptions.

Certain programs have higher risks due to increased chances of fraudulent activities perpetrated against
FHA. FHA accounts for these risks through the assumptions used in the liabilities for loan guarantee
estimates. FHA develops the assumptions based on historical performance and management's judgments
about future loan performance.

General Property, Plant and Equipment

FHA does not maintain separate facilities. HUD purchases and maintains all property, plant and
equipment used by FHA, along with other Office of Housing activities.

Current HUD policy concerning SFFAS No. 10, Accounting for Internal Use Software, indicates that
HUD will either own the software or the functionality provided by the software in the case of licensed or
leased software. This includes “commercial off-the-shelf” software, contractor-developed software, and
internally developed software. FHA had several procurement actions in place and had incurred expenses
for software development. FHA identified and transferred those expenses to HUD to comply with
departmental policy.

Appropriations

FHA receives annual appropriations for certain operating expenses for its MMI/CMHI, GI/SRI, and H4H
program activities, some of which are transferred to HUD. Additionally, FHA receives appropriations for
GI/SRI positive subsidy, upward reestimates, and permanent indefinite authority to cover any shortage of
resources in the liquidating account. Permanent indefinite authority is also available to the MMI Program
Fund if the Capital Reserve Fund does not have sufficient resources to be transferred to the MMI
Financing Fund to cover upward reestimates.

Full Cost Reporting




                                                    28
                                                                                             2013-FO-0002

SFFAS No. 4, Managerial Cost Accounting Concepts and Standards and SFFAS No. 30, Inter-Entity
Cost Implementation: Amending SFFAS 4, Managerial Cost Accounting Standards and Concepts to
account for costs assumed by other Federal organizations on their behalf, require that Federal agencies
report the full cost of program outputs in the financial statements. Full cost reporting includes all direct,
indirect, and inter-entity costs. HUD allocates each responsibility segment’s share of the program costs
or resources provided by other Federal agencies. As a responsibility segment of HUD, FHA’s portion of
these costs was $15 million for fiscal year 2012 and $18 million for fiscal year 2011, and was included in
FHA’s financial statements as an imputed cost in the Consolidated Statements of Net Cost, and an
imputed financing in the Consolidated Statements of Changes in Net Position.

Distributive Shares

As mutual funds, excess revenues in the MMI/CMHI Fund may be distributed to mortgagors at the
discretion of the Secretary of HUD. Such distributions are determined based on the funds' financial
positions and their projected revenues and costs. No distributive share distributions have been declared
from the MMI fund since the enactment of the National Affordable Housing Act (NAHA) in 1990.

Liabilities Covered by Budgetary Resources

Liabilities of federal agencies are required to be classified as those covered and not covered by budgetary
resources, as defined by OMB Circular A-136, and in accordance with SFFAS No. 1. In the event that
available resources are insufficient to cover liabilities due at a point in time, FHA has authority to borrow
monies from the U.S. Treasury (for post-1991 loan guarantees) or to draw on permanent indefinite
appropriations to satisfy the liabilities. Thus, all of FHA’s liabilities are considered covered by budgetary
resources.

Statement of Budgetary Resources

The Statement of Budgetary Resources has been prepared as a combined statement and as such, intra-
entity transactions have not been eliminated. Budget authority is the authorization provided by law to
enter into obligations to carry out the guaranteed and direct loan programs and their associated
administrative costs, which would result in immediate or future outlays of federal funds. FHA's
budgetary resources include current budgetary authority (i.e., appropriations and borrowing authority) and
unobligated balances brought forward from multi-year and no-year budget authority received in prior
years, and recoveries of prior year obligations. Budgetary resources also include spending authority from
offsetting collections credited to an appropriation or fund account.

Unobligated balances associated with appropriations that expire at the end of the fiscal year remain
available for obligation adjustments, but not for new obligations, until that account is canceled. When
accounts are canceled, five years after they expire, amounts are not available for obligations or
expenditure for any purpose.

FHA funds its programs through borrowings from the U.S. Treasury and debentures issued to the public.
These borrowings and debentures are authorized through a permanent indefinite authority at interest rates
set each year by the U.S. Treasury and the prevailing market rates.

Statement of Net Cost

In FY 2012, FHA revised the presentation of the Statement of Net Cost (SNC) to more closely align with
FHA’s major programs. For comparison purposes, the presentation of the FY 2011 SNC was also



                                                     29
                                                                               2013-FO-0002

revised. Although overall net program cost for the FY 2011 SNC was not changed, certain
reclassifications were made to the previously issued FY 2011 SNC to conform to the new format.




                                             30
                                                                                           2013-FO-0002


Note 2. Non-entity Assets

Non-entity assets consist of assets that belong to other entities but are included in FHA’s consolidated
balance sheets. To reflect FHA’s net position accurately, these non-entity assets are offset by various
liabilities. FHA’s non-entity assets as of September 30, 2012 and 2011 are as follows:

           (Dollars in millions)
                                                                     FY 2012          FY 2011
           Intragovernmental:
                       Fund Balance with Treasury                $        2,894   $        1,292
                       Investments in U.S. Treasury Securities                3                3
           Total Intragovernmental                                        2,897            1,295

           Other Assets                                                      54               66
           Total Non-Entity Assets                                        2,951            1,361
           Total Entity Assets                                           53,052           50,407
           Total Assets                                          $      56,003    $      51,768

FHA’s non-entity assets consist of FHA’s U.S. Treasury deposit of negative credit subsidy in the GI/SRI
general fund receipt account and of escrow monies collected by FHA from the borrowers of its loans.

According to the FCRA, FHA transfers GI/SRI negative credit subsidy from new endorsements,
downward credit subsidy reestimates, loan modifications, and unobligated balances from the liquidating
account to the GI/SRI general fund receipt accounts. At the beginning of each fiscal year, fund balances
in the GI/SRI general fund receipt accounts are transferred into the U.S. Treasury’s general fund.

Other assets consisting of escrow monies collected from FHA borrowers are either deposited at the U.S.
Treasury or minority-owned banks or invested in U.S. Treasury securities. Subsequently, FHA disburses
these escrow monies to pay for property taxes, property insurance or maintenance expenses on behalf of
the borrowers.




                                                      31
                                                                                               2013-FO-0002


Note 3. Fund Balance with U.S. Treasury
FHA’s fund balance with U.S. Treasury was comprised of the following as of September 30, 2012 and
2011:

                  (Dollars in millions)                              FY 2012       FY 2011
                  Fund Balances:
                    Revolving Funds                              $      43,449 $      39,386
                    Appropriated Funds                                     790           795
                    Other Funds                                          3,401         1,825
                         Total                                   $     47,640 $      42,006

                  Status of Fund Balance with U.S. Treasury:
                    Unobligated Balance
                         Available                               $      18,405 $      13,392
                         Unavailable                                    26,030        25,557
                    Obligated Balance Not Yet Disbursed                  3,205         3,057
                         Total                                   $     47,640 $      42,006

Revolving Funds
FHA’s revolving funds include the liquidating and financing accounts as required by the FCRA. These
funds are created to finance a continuing cycle of business-like operations in which the fund charges for
the sale of products or services. These funds also use the proceeds to finance spending, usually without
requirement of annual appropriations.

Appropriated Funds
FHA’s appropriated funds consist of annual or multi-year program accounts that expire at the end of the
time period specified in the authorizing legislation. For the subsequent five fiscal years after expiration,
the resources are available only to liquidate valid obligations incurred during the unexpired period.
Adjustments are allowed to increase or decrease valid obligations incurred during the unexpired period
that were not previously reported. At the end of the fifth expired year, the annual and multi-year program
accounts are cancelled and any remaining resources are returned to the U.S. Treasury.
Other Funds

FHA’s other funds include the general fund receipt accounts established under the FCRA. Additionally,
the capital reserve account is included with these funds and is used to retain the MMI/CMHI negative
subsidy and downward credit subsidy reestimates transferred from the financing account. If subsequent
upward credit subsidy reestimates are calculated in the financing account or there is shortage of budgetary
resources in the liquidating account, the capital reserve account will return the retained negative subsidy
to the financing account or transfer the needed funds to the liquidating account, respectively.
Status of Fund Balance with U.S. Treasury

Unobligated Fund Balance with U.S. Treasury represents Fund Balance with U.S. Treasury that has not
been obligated to purchase goods or services either because FHA has not received apportionment
authority from OMB to use the resources (unavailable unobligated balance) or because FHA has not
obligated the apportioned resources (available unobligated balance). Fund Balance with U.S. Treasury
that is obligated, but not yet disbursed, consists of resources that have been obligated for goods or


                                                     32
                                                                                      2013-FO-0002

services but not yet disbursed either because the ordered goods or services have not been delivered or
because FHA has not yet paid for goods or services received by the end of the fiscal year.




                                                 33
                                                                                                  2013-FO-0002


Note 4. Investments

Investment in U.S. Treasury Securities
As discussed in Note 1, all FHA investments in Treasury securities are in non-marketable securities
issued by the U.S. Treasury. These securities carry market-based interest rates. The market value of
these securities is calculated using the bid amount of similar marketable U.S. Treasury securities as of
September 30th. The cost, net amortized premium/discount, net investment, and market values of FHA’s
investments in U.S. Treasury securities as of September 30, 2012 were as follows:

(Dollars in millions)

                                                      Amortized (Premium)
FY 2012                              Cost               / Discount, Net           Investments, Net            Market Value
MMI/CMHI Investments            $             2,771   $                 1       $               2,772     $              2,772
GI/SRI Investments                                3                     -                           3                        3
Total                           $            2,774    $                 1       $              2,775      $             2,775

The cost, net amortized premium/discount, net investment, and market values as of September 30, 2011
were                                            as                                           follows:

                                                      Amortized (Premium)
FY 2011                              Cost               / Discount, Net           Investments, Net          Market Value
MMI/CMHI Investments            $             4,091   $                 23      $              4,114      $            5,106
GI/SRI Investments                                3                      -                         3                       3
              Subtotal          $             4,095   $                 23      $              4,117      $            5,109

MMI/CMHI Accrued Interest                        -                        -                       18                           18
Total                           $            4,095    $                  23     $              4,135      $                 5,127



Investments in Private-Sector Entities

Investments in Section 601 and Risk Sharing Debentures as of September 30, 2012 and 2011
were as follows:
                                                            Share of
                             Beginning         New         Earnings or        Returns of                          Ending
(Dollars in millions)         Balance       Acquisitions     Losses           Investment    Redeemed              Balance
FY 2012
 601 Program and Note Sales $         6 $             21 $           7 $             (31) $               -   $          3
 Risk Sharing Debentures             57                -             -                 -                  -             57
Total                       $        63 $             21 $           7 $             (31) $               -   $         60

FY 2011
 601 Program and Note Sales $         9 $              - $          (1) $             (2) $               - $            6
 Risk Sharing Debentures            127                1             -                 -                (71)            57
Total                       $       136 $              1 $          (1) $             (2) $             (71) $          63




                                                      34
                                                                                         2013-FO-0002



Note 5. Accounts Receivable, Net

Accounts receivable, net, as of September 30, 2012 and 2011 are as follows:

                                                 Gross                 Allowance                   Net
(Dollars in millions)                       FY 2012    FY2011       FY 2012     FY2011       FY 2012      FY2011
With the Public:

Receivables related to                  $       16    $    16   $        -    $     -    $       16   $      16
  credit program assets
Premiums receivable                              6          4            -           -            6           4
Generic Debt Receivables                        79         80          (79)        (80)           -           -
Miscellaneous receivables                        2         12            -           -            2          12
Total                                   $      103    $   112   $      (79) $     (80) $         24   $      32



Receivables Related to Credit Program Assets

These receivables include asset sale proceeds receivable and rents receivable from FHA’s foreclosed
properties.

Premiums Receivable

These amounts consist of the premiums due to FHA from the mortgagors at the end of the reporting
period. The details of FHA premium structure are discussed in Note 13 – Earned Revenue/Premium
Revenue.

Generic Debt Receivables

These amounts are mainly composed of receivables from various sources, the largest of which are partial
claims, indemnifications, and restitutions relating to Single Family programs.

Miscellaneous Receivables

Miscellaneous receivables include late charges and penalties receivable on premiums receivable, refunds
receivable from overpayments of claims and distributive shares and other immaterial receivables.

Allowance for Loss

The allowance for loss for these receivables is calculated based on FHA’s historical loss experience and
management’s judgment concerning current economic factors.




                                                     35
                                                                                     2013-FO-0002



Note 6. Direct Loans and Loan Guarantees, Non-Federal Borrowers

Direct Loan and Loan Guarantee Programs Administered by FHA Include:

MMI/CMHI Direct Loan Program
GI/SRI Direct Loan Program
MMI/CMHI Loan Guarantee Program
GI/SRI Loan Guarantee Program
H4H Loan Guarantee Program

FHA Direct Loan and Loan Guarantee Programs and the related loans receivable, foreclosed property,
and Loan Guarantee Liability as of September 30, 2012 and 2011 are as follows:

Direct Loan Program

               (Dollars in Millions)

               FY 2012                                                Total
               Direct Loans
                 Loan Receivables                                              15
                 Interest Receivables                                          11
                 Allowance                                                    (11)
               Total Direct Loans                                             15


               (Dollars in Millions)

               FY2011                                                 Total
               Direct Loans
                 Loan Receivables                                              16
                 Interest Receivables                                          10
                 Allowance                                                    (11)
               Total Direct Loans                                             15




                                               36
                                                                                           2013-FO-0002

Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method):
     (Dollars in Millions)
     FY 2012                                         MMI/CMHI          GI/SRI             Total
     Guaranteed Loans
       Single Family Forward
             Loan Receivables                                  17                  1                 18
             Allowance for Loan Losses                        (35)               (16)               (51)
             Foreclosed Property                               24                 10                 34
       Subtotal                                                 6                 (5)                 1

        Multifamily/Healthcare
             Loan Receivables                                    -            2,338                2,338
             Interest Receivables                                -              219                  219
             Allowance for Loan Losses                           -           (1,362)              (1,362)
             Foreclosed Property                                 -                1                    1
        Subtotal                                                 -           1,196                1,196

        HECM
             Loan Receivables                                    -                 5                   5
             Interest Receivables                                -                 1                   1
             Allowance for Loan Losses                           -                (2)                 (2)
             Foreclosed Property                                 -                 5                   5
        Subtotal                                                 -                 9                   9

     Total Guaranteed Loans                                     6            1,200                1,206

     (Dollars in Millions)
     FY2011                                          MMI/CMHI           GI/SRI            Total
     Guaranteed Loans
       Single Family Forward
             Loan Receivables                                  17                  3                  20
             Interest Receivables                               -                  1                   1
             Allowance for Loan Losses                        (43)               (13)                (56)
             Foreclosed Property                               32                 11                  43
       Subtotal                                                 6                  2                   8

        Multifamily/Healthcare
             Loan Receivables                                    -            2,459                2,459
             Interest Receivables                                -              215                  215
             Allowance for Loan Losses                           -           (1,660)              (1,660)
             Foreclosed Property                                 -                1                    1
        Subtotal                                                 -           1,015                1,015

        HECM
             Loan Receivables                                    -                 5                   5
             Interest Receivables                                -                 1                   1
             Allowance for Loan Losses                           -                (1)                 (1)
             Foreclosed Property                                 -                 4                   4
        Subtotal                                                 -                 9                   9

     Total Guaranteed Loans                                     6            1,026                1,032

*HECM loans, while not defaulted, have reached 98% of the maximum claim amount and have been assigned to
FHA.



                                                    37
                                                                                  2013-FO-0002

Defaulted Guaranteed Loans from Post-1991 Guarantees:
   (Dollars in Millions)
   FY 2012                              MMI/CMHI         GI/SRI        Total
   Guaranteed Loans
     Single Family Forward
           Loan Receivables                    1,582            53          1,635
           Interest Receivables                    3             2              5
           Foreclosed Property                 4,888           200          5,088
           Allowance                          (4,410)         (177)        (4,587)
     Subtotal                                 2,063             78         2,141

     Multifamily/Healthcare
         Loan Receivables                           -          631              631
         Interest Receivables                       -            -                -
         Foreclosed Property                        -            1                1
         Allowance                                  -         (382)            (382)
     Subtotal                                       -         250              250

     HECM
         Loan Receivables                        163          1,775         1,938
         Interest Receivables                      38           805           843
         Foreclosed Property                        -            53            53
         Allowance                                (71)         (934)       (1,005)
     Subtotal                                    130         1,699         1,829

   Total Guaranteed Loans                     2,193          2,027         4,220
   (Dollars in Millions)
   FY2011                               MMI/CMHI         GI/SRI        Total
   Guaranteed Loans
     Single Family Forward
           Loan Receivables                    1,116            43          1,159
           Interest Receivables                    -             2              2
           Foreclosed Property                 5,199           277          5,476
           Allowance                          (3,859)         (199)        (4,058)
     Subtotal                                 2,456           123          2,579

     Multifamily/Healthcare
         Loan Receivables                           -          681              681
         Interest Receivables                       -            -                -
         Foreclosed Property                        -            -                -
         Allowance                                  -         (448)            (448)
     Subtotal                                       -         233              233

     HECM
         Loan Receivables                         26          1,395         1,421
         Interest Receivables                       5           643           648
         Foreclosed Property                        -            61            61
         Allowance                                 (8)         (521)         (529)
     Subtotal                                     23         1,578         1,601

   Total Guaranteed Loans                     2,479          1,934         4,413

*HECM loans, while not defaulted, have reached 98% of the maximum claim amount and have
been assigned to FHA.


                                            38
                                                                       2013-FO-0002

Guaranteed Loans Outstanding:

   (Dollars in Millions)
                                                    Outstanding        Amount of
                                                     Principal of     Outstanding
                                                  Guaranteed Loans,    Principal
   Loan Guarantee Programs                           Face Value       Guaranteed

   Guaranteed Loans Outstanding (FY 2012):
     MMI/CMHI
      Single Family Forward                               1,141,279       1,069,003
      Multifamily/Healthcare                                    439             417
     MMI/CMHI Subtotal                                   1,141,718       1,069,420

     GI/SRI
      Single Family Forward                                  18,094          14,868
      Multifamily/Healthcare                                 93,492          85,852
     GI/SRI Subtotal                                       111,586         100,720

     H4H
      Single Family - 257                                      124             122
     H4H Subtotal                                              124             122

   Total                                                 1,253,428       1,170,262

   Guaranteed Loans Outstanding (FY 2011):
     MMI/CMHI
      Single Family Forward                               1,062,363       1,002,724
      Multifamily/Healthcare                                    407             384
     MMI/CMHI Subtotal                                   1,062,770       1,003,108

     GI/SRI
      Single Family Forward                                  20,678          17,538
      Multifamily/Healthcare                                 83,556          76,058
     GI/SRI Subtotal                                       104,234          93,596

     H4H
      Single Family - 257                                      125             124
     H4H Subtotal                                              125             124

   Total                                                 1,167,129       1,096,828




                                             39
                                                               2013-FO-0002

New Guaranteed Loans Disbursed:

   New Guaranteed Loans Disbursed (FY 2012):
     MMI/CMHI
      Single Family Forward                          213,159      210,936
      Multifamily/Healthcare                             108          107
     MMI/CMHI Subtotal                              213,267      211,043

     GI/SRI
      Single Family Forward                              163          161
      Multifamily/Healthcare                          18,643       18,548
     GI/SRI Subtotal                                 18,806       18,709

     H4H
      Single Family - 257                                  -            -
     H4H Subtotal                                          -            -

   Total                                            232,073      229,752

   New Guaranteed Loans Disbursed (FY 2011):
     MMI/CMHI
      Single Family Forward                          217,629      215,282
      Multifamily/Healthcare                              85           85
     MMI/CMHI Subtotal                              217,714      215,367

     GI/SRI
      Single Family Forward                              177          176
      Multifamily/Healthcare                          16,512       16,442
     GI/SRI Subtotal                                 16,689       16,618

     H4H
      Single Family - 257                               101          100
     H4H Subtotal                                       101          100

   Total                                            234,504      232,085




                                               40
                                                                                            2013-FO-0002

Home Equity Conversion Mortgage (HECM)
HECM (reverse mortgages) are not included in the previous tables due to the unique nature of the
program. Since the inception of the program, FHA has insured 778,327 HECM loans with a maximum
claim amount of $176 billion. Of these 778,327 HECM loans insured by FHA, 595,351 loans with a
maximum claim amount of $140 billion are still active. As of September 30, 2012 the insurance-in-force
(the outstanding balance of active loans) was $94 billion. The insurance in force includes balances drawn
by the mortgagee; interest accrued on the balances drawn, service charges, and mortgage insurance
premiums. The maximum claim amount is the dollar ceiling to which the outstanding loan balance can
grow before being assigned to FHA.

Home Equity Conversion Mortgage Loans Outstanding (not included in the balances in the
previous table)

(Dollars in Millions)
                                                                                      Cumulative
                                                                       Current                         Maximum
                                     Current Year                     Outstanding                      Potential
Loan Guarantee Programs              Endorsements                      Balance                         Liability

FY 2012     MMI/CMHI                $         13,111              $          48,412                $         76,220
            GI/SRI                                 -                         45,153                          63,639
                           Total    $        13,111               $         93,565                 $       139,859

FY 2011     MMI/CMHI                $         18,141              $          39,686                $         65,624
            GI/SRI                               -                           44,949                          66,151
                           Total    $        18,141               $         84,635                 $       131,775




                                                    41
                                                                                          2013-FO-0002

Loan Guarantee Liability, Net:

  (Dollars in Millions)
  FY 2012                              MMI/CMHI          GI/SRI           H4H               Total
    LLR
     Single Family Forward         $          11 $                 1 $              - $             12
     Multifamily/Healthcare                    -                   5                -                5
    Subtotal                       $          11 $                 6 $              - $             17

    LLG
    Single Family Forward          $        37,105 $          1,662 $           20 $            38,787
    Multifamily/Healthcare                     (17)          (1,593)             -              (1,610)
     HECM                                    5,548           12,242              -              17,790
    Subtotal                       $       42,636 $         12,311 $            20 $           54,967

  Loan Guarantee Liability Total   $       42,647   $       12,317    $         20    $        54,984



  FY2011                               MMI/CMHI          GI/SRI           H4H               Total
    LLR
    Single Family Forward          $           18 $               -   $         -     $             18
    Multifamily/Healthcare                    -                    16           -                   16
    Subtotal                       $          18 $                16 $              - $             34

    LLG
    Single Family Forward          $        26,305 $            799 $            19 $           27,123
    Multifamily/Healthcare                     (12)          (1,055)            -               (1,067)
     HECM                                    2,149            7,864             -               10,013
    Subtotal                       $        28,442 $          7,608 $            19 $           36,069

  Loan Guarantee Liability Total   $       28,460   $        7,624    $         19    $        36,103




                                                    42
                                                                                     2013-FO-0002

Subsidy Expense for Loan Guarantees by Program and Component:

        (Dollars in millions)

        FY 2012                            MMI/CMHI        GI/SRI       H4H         Total
           Single Family Forward
              Defaults                          6,825             5            -        6,830
              Fees and Other Collections      (13,194)           (7)           -     (13,201)
              Other                               992             -            -          992
           Subtotal                           (5,377)            (2)           -      (5,379)

            Multifamily/Healthcare
              Defaults                                4         642            -         646
              Fees and Other Collections             (9)     (1,035)           -      (1,044)
              Other                                   1           -            -           1
            Subtotal                                 (4)      (393)            -       (397)

            HECM
              Defaults                            754               -          -         754
              Fees and Other Collections         (953)              -          -        (953)
            Subtotal                            (199)               -          -       (199)

        Total                                  (5,580)        (395)            -     (5,975)

        FY 2011                            MMI/CMHI        GI/SRI       H4H         Total
           Single Family Forward
              Defaults                          5,199             6           16       5,221
              Fees and Other Collections      (14,103)           (8)          (6)    (14,117)
              Other                             2,170             -            1       2,171
           Subtotal                            (6,734)           (2)          11      (6,725)

            Multifamily/Healthcare
              Defaults                                2         424            -        426
              Fees and Other Collections             (5)       (874)           -       (879)
              Other                                   1           -            -          1
            Subtotal                                 (2)       (450)           -       (452)

            HECM
              Defaults                              931             -          -        931
              Fees and Other Collections           (933)            -          -       (933)
            Subtotal                                 (2)            -          -         (2)

        Total                                  (6,738)        (452)           11     (7,179)




                                              43
                                                                                   2013-FO-0002

Subsidy Expense for Modifications and Reestimates:

                 (Dollars in millions)
                                                         Total      Technical
                 FY 2012                             Modifications Reestimate
                     MMI/CMHI                                    -     16,636
                     GI/SRI                                      -       3,993
                 Total                                           -     20,629

                 FY 2011
                     MMI/CMHI                                   -         8,395
                     GI/SRI                                   (37)         (574)
                 Total                                        (37)        7,821


Total Loan Guarantee Subsidy Expense:

                 (Dollars in millions)
                                                       FY 2012       FY 2011
                     MMI/CMHI                              11,054         1,657
                     GI/SRI                                 3,599        (1,063)
                     H4H                                        -            11
                 Total                                     14,653           605




                                              44
                                                                                              2013-FO-0002

Subsidy Rates for Loan Guarantee Endorsements by Program and Component:


                                                                            Fees and Other
(Percentage)                                                     Defaults      Collections      Other        Total

Budget Subsidy Rates for FY 2012 Loan Guarantees:

      MMI/CMHI
      Single Family
       Forward - 06/11/2012 - present                                3.65            (6.40)        -         (2.75)
       Forward - 04/09/2012 - 06/10/2012                             3.65            (6.65)        -         (3.00)
       Forward - 10/01/11 - 04/08/2012                               2.67            (5.84)       1.01       (2.16)
       HECM                                                          5.73            (7.25)        -         (1.52)
       Short Refinance                                               6.38            (5.99)      (0.39)        -
      Multifamily
       Cooperatives - 06/11/2012 - present                           3.65            (6.40)       -          (2.75)
       Cooperatives - 04/09/2012 - 06/10/2012                        3.65            (6.65)       -          (3.00)
       Cooperatives - 10/01/11 - 04/08/2012                          2.67            (5.84)      1.01        (2.16)

      GI/SRI
      Multifamily
        Apartments                                                   5.32            (6.41)       -          (1.09)
       Apartments Refinance                                          3.45            (5.62)       -          (2.17)
       Apartments Refinance                                          3.45            (5.62)       -          (2.17)
      Healthcare
        Residential Care                                             3.60            (5.56)       -          (1.96)
        Hospitals                                                    1.79            (5.61)       -          (3.82)


                                                                            Fees and Other
(Percentage)                                                     Defaults      Collections      Other        Total

Budget Subsidy Rates for FY 2011 Loan Guarantees:

      MMI/CMHI
      Single Family
       Forward - (4/18/2011 - 9/30/2011)                             2.10            (6.90)      1.02        (3.78)
       Forward (10/1/2010 - 4/17/2011)                               2.61            (6.17)      0.98        (2.58)
       HECM                                                          5.11            (5.12)       -          (0.01)
       Short Refinance                                                -                -          -            -
      Multifamily
       Cooperatives - (4/18/2011 - 9/30/2011)                        2.63            (6.50)      1.02        (2.85)
       Cooperatives - Section 213 (10/1/2010 - 4/17/2011)            2.61            (6.17)      0.98        (2.58)

      GI/SRI
      Multifamily
        Apartments - (1/1/2011 - 9/30/2011)                          3.59            (5.50)       -          (1.91)
       Apartments - (10/1/2010 - 12/31/2010)                         3.71            (5.49)       -          (1.78)
       Apartments Refinance (1/1/2011 - 9/30/2011)                   1.95            (5.35)       -          (3.40)
       Apartments Refinance - (10/1/2010 - 12/31/2010)               1.97            (5.32)       -          (3.35)
       Apartments Refinance - (1/1/2011 - 9/30/2011)                 1.95            (5.35)       -          (3.40)
       Apartments Refinance - (10/1/2010 - 12/31/2010)               1.97            (5.32)       -          (3.35)
      Healthcare
       Residential Care (11/17/2010 - 9/30/2011)                     4.49            (6.00)       -          (1.51)
       Residential Care - (10/1/2010 - 11/16/2010)                   4.62             5.94        -          10.56
       Hospitals                                                     1.81            (5.48)       -          (3.67)

      H4H
       Single Family - Section 257                                  15.95            (6.14)      1.09        10.90




                                                            45
                                                                                            2013-FO-0002

Schedule for Reconciling Loan Guarantee Liability Balances:

                                                                         FY 2012                  FY2011
(Dollars in Millions)                                                 LLR       LLG            LLR       LLG
Beginning Balance of the Loan Guarantee Liability                   $     34 $ 36,070        $     53 $ 34,905
Add:        Subsidy Expense for guaranteed loans disbursed during
            the reporting fiscal years by component:
                         Default Costs (Net of Recoveries)                -        8,230          -            6,578
                         Fees and Other Collections                       -      (15,198)         -         (15,929)
                         Other Subsidy Costs                              -          993          -            2,172
            Total of the above subsidy expense components                 -      (5,975)              -      (7,179)
Adjustments:
            Fees Received                                                         10,733                      8,582
            Foreclosed Property and Loans Acquired                                 5,857                      5,082
            Claim Payments to Lenders                                            (20,260)                   (17,200)
            Interest Accumulation on the Liability Balance                         1,417                      1,388
            Other                                                                    (36)                        11
Ending Balance before Reestimates                                        34      27,806           53        25,589
Add or Subtract Subsidy Reestimates by Component:
            Technical/Default Reestimate
                         Subsidy Expense Component                      (17)      14,553           (19)      (1,647)
                         Interest Expense Component                       -        5,616           -          1,397
            Adjustment of prior years' credit subsidy reestimates         -        6,992             -       10,730
Total Technical/Default Reestimate                                      (17)     27,161           (19)      10,480

Ending Balance of the Loan Guarantee Liability                      $    17    $ 54,967      $    34      $ 36,069



Administrative Expense:


                         (Dollars in Millions)   FY 2012      FY2011
                            MMI/CMHI                  646         663
                            GI/SRI                      -           6
                            H4H                         -           4
                         Total                       646          673




                                                     46
                                                                                         2013-FO-0002

Credit Reform Valuation Methodology

FHA values its Credit Reform LLG and related receivables from notes and properties in inventory at the
net present value of their estimated future cash flows.

To apply the present value computations, FHA divides loans into cohorts and risk categories.
Multifamily and Healthcare cohorts are defined based on the year in which loan guarantee commitments
are made. Single Family mortgages are grouped into cohorts based on loan endorsement dates for the
GI/SRI and MMI fund. Within each cohort year, loans are subdivided by “risk” categories, which are
programmatic groupings used for the President’s Budget. Each risk category has characteristics that
distinguish it from others, including types of loans and properties, premium rate structure, and
underwriting and servicing requirements. For activity related to fiscal years 1992-2008, the MMI Fund
has one risk category, and for activity related to fiscal years 2009 and onward, the MMI Fund has two risk
categories, with HECM loans considered a separate category from standard forward loans. The Single
Family GI/SRI Fund loans are grouped into four risk categories. There are thirteen different Multifamily
risk categories and six Healthcare categories.

The cash flow estimates that underlie present value calculations are determined using the significant
assumptions detailed below.

Significant Assumptions – FHA developed economic and financial models in order to estimate the
present value of future program cash flows. The models incorporate information on the cash flows’
expected magnitude and timing. The results of those models rely heavily on the following loan
performance assumptions:

       Conditional Termination Rates: The estimated probability of an insurance policy claim or non-
        claim termination in each year of the loan guarantee’s term, given that a loan survives until that
        year. Surviving loans generally provide an ongoing (premium) revenue stream.

       Claim Amount: The estimated amount of the claim payment relative to the unpaid principal
        balance at the time the claim occurs.

       Recovery Rates: The estimated percentage of a claim payment or defaulted loan balance that is
        recovered through disposition of a mortgage note or underlying property.

Additional information about loan performance assumptions is provided below:

Sources of data: FHA uses historical data obtained from its internal business systems as the basis for
behavioral models of insured-loan performance. Those data include loan, borrower, and property
characteristics, as well as servicing records (delinquencies) and information on Secretary-held notes and
properties.

Economic assumptions: Independent forecasts of economic conditions are used in conjunction with loan-
level data to generate program specific claim and prepayment rates. Sources of forecast data include IHS
Global Insight and Moody’s Analytics. OMB provides other economic assumptions used such as discount
rates from the latest President’s Budget.

Actuarial Review: An independent actuarial study of the MMI Fund each year produces the conditional
claim and prepayment rates and loss severity rates used as inputs to the Single Family LLG calculation,
both for forward and HECM loans.



                                                   47
                                                                                              2013-FO-0002

Reliance on historical performance: FHA analyzes the historical performance of its insured portfolio in
relation to economic conditions at the time. This performance is integrated econometrically with
economic forecasts to generate future performance patterns for the outstanding portfolios. Changes in
legislation, program requirements, tax treatment, and economic factors all influence loan performance.
FHA assumes that each portfolio will continue to perform consistently with its historical experience,
taking into account differences due to changing portfolio composition—-via loan, borrower, and property
characteristics—and forecasted economic conditions.

Current legislation and regulatory structure: FHA's future plans allowed under current legislative
authority have been taken into account in formulating assumptions when relevant. In contrast, future
changes in legislative authority may affect the cash flows associated with FHA insurance programs. Such
changes cannot be reflected in LLG calculations because of uncertainty over their nature and outcome.

Discount rates: The disbursement-weighted interest rate on U.S. Treasury securities of maturity
comparable to guaranteed loan term is the discount factor used in the present value calculation for cohorts
1992 to 2000. For the 2001 and future cohorts, the rate on U.S. Treasury securities of maturities
comparable to cash flow timing for the loan guarantee is used in the present value calculation. This latter
methodology is referred to as the basket-of-zeros discounting methodology. OMB provides these rates to
all Federal agencies for use in preparing credit subsidy estimates and requires their use under OMB
Circular A-11, Part 4, and “Instructions on Budget Execution.” The basket-of-zeros discount factors are
also disbursement weighted. For 2012 LLG estimation we use discount rates consistent with the FY2013
President’s Budget.

Analysis of Change in the Liability for Loan Guarantees LLG values are estimates of future cash
flows based upon business run-off or run-down scenarios. They provide an accounting of requirements
for loss reserves against anticipated future credit expenses, net of anticipated future premium revenues, on
active insurance portfolios at the end of the fiscal year of record. There is no consideration of any
potential offsets from future insurance commitments. Increases in LLG from the previous year suggest the
need for larger loss reserves, and declines suggest that some current reserves can be released. This
treatment is in accordance with Federal GAAP standards. The LLG provides to FHA management an
anticipation of what can be expected in the formal budget re-estimate exercise that takes place in
December of each year. That is where final determinations are made concerning required cash reserves
against future, anticipated credit losses. In that exercise, the value of each portfolio run-off is compared to
current balances in the various Financing Accounts that support each program and budget cohort. Under
Federal Credit Reform, comparison of the updated net-present-value calculations of the run-off to current
balances in the Financing Accounts determines whether there are to be net flows from those business
accounts to the Federal budget (net receipts), or net flows from budget accounts to the business accounts
(indirect appropriations). This annual budget re-estimate exercise is performed for all Federal direct loan
and guarantee programs.

FHA has estimated and reported on LLG calculations since fiscal year 1992, the first year that Federal
Credit Reform was in effect. Over this time, FHA’s reported LLG values have shown measurable year-to-
year variance. That variance is caused by four factors: (1) adding a new year of insurance commitments
each year; (2) an additional year of actual loan performance data used to calibrate forecasting models, (3)
revisions to the methodologies employed to predict future loan performance along with updated economic
forecasts, and (4) programmatic/policy changes that affect the characteristics of insured loans or potential
credit losses.

Described below are the programs that comprise the majority of FHA’s loan guarantee business. These
descriptions highlight factors that contributed to changing LLG estimates for FY 2012. Overall, FHA’s
liability increased from the fiscal year 2011 estimates.


                                                      48
                                                                                            2013-FO-0002


Mutual Mortgage Insurance (MMI) Fund – On net, the MMI Fund LLG increased from $28,454 million
at the end of fiscal year 2011 to $42,652 at the end of fiscal year 2012. This increase is the result of many
factors. There are, however, three primary factors at work this year in the forward-loan portfolio and three
in the HECM (reverse mortgage) portfolio. First for forward loans is that historically low interest rates
accelerate portfolio run-off and decrease anticipated revenues. Any recapture of those loans (and revenue
streams) in future books-of-business is not considered in the LLG calculation. Second are modeling
refinements that have the effect of changing the balance of anticipated claims to favor more conveyance
actions (via foreclosure) and fewer short sales, and that also increase anticipated losses on conveyance
claims in the near term. The third major factor affecting portfolio valuation this year is that home-price
forecasts now call for an additional year delay before recovery takes place, and slower price growth in
that recovery.

The first factor affecting the HECM LLG calculation this year is revised estimates of borrower and loan
longevity. Loans that are active for 15 years or more have heightened risk of net losses for FHA once
termination occurs and final recoveries (via property sales) are known. This year’s model predicts more
loans in the current portfolio will likely survive beyond the 15-year mark. Not only are borrowers
expected to live longer, but current housing market conditions create situations where those that might
otherwise have sold their homes and moved in the first five-to-ten years decide, instead, to age in-place.
Second is a recessionary effect of more properties being conveyed to HUD after loan termination than has
been program experience in the past. In the past, it was common for as many as 70 percent of properties
to be sold directly by owners and estate executors. In the current environment, that rate has fallen to just
30 percent. The impact for LLG calculations comes via the property management expenses HUD incurs
after conveyance. Those contractor expenses are not present when there is a direct owner/executor
property-sale. The third principal factor increasing HECM LLG this year is an updated adjustment for so-
called tax-and-insurance defaults. Borrowers are required to pay all property tax assessments and
maintain hazard insurance during the life of the HECM loan. When they do not make these payments, the
loan servicer advances funds, charges that to the loan balance, and then works with the borrower on a
repayment plan. This year we estimate that fewer borrowers will be successful under such repayment
plans. That creates predictions of more early loan terminations, which both lower revenue predictions and
increase estimates of short-fall claims (property value less than loan amount).

To address continued weakness in housing markets, and its impact on LLG, FHA raised forward-loan
insurance premiums in April 2012. This was the fourth premium increase under the current
Administration and the fifth since the financial crisis of 2008. An additional pricing adjustment was made
in June of this year, with a 25 basis point annual premium add-on for loans above $625,500. In a separate
move, and in order to accelerate refinancing of loans insured during the peak years of the housing market
into today’s historically-low interest rates, FHA created a premium-rate carve-out for loans insured prior
to June 2009. Starting in June 2012, loans with FHA insurance dates before June 2009 have the option of
a streamline refinance action with a minimum upfront premium (1 basis point) and annual premiums
consistent with their present payments (55 basis points). Though that will serve to create surplus-income
cushions in household budgets that will reduce anticipated credit costs of the new refinance loans, it has
the immediate effect of increasing LLG by expanding anticipated payoff rates during the next two years.

FHA continues to face delayed claim actions because of significant foreclosure process bottlenecks in so-
called judicial States, where court approval is required to schedule foreclosure auctions. Those delays are
addressed in the loan performance forecasts. This year, the MMI Fund LLG includes an assumption that
56,000 of those loans will go to conveyance claim in FY 2013, apart from normal model predictions out
of the seriously delinquent inventory. While that might result in an over-prediction of near-term claims, it
is done to avoid the possibility that the LLG calculations might under-predict claims over the next three



                                                     49
                                                                                           2013-FO-0002

years because the forecasting equations cannot accurately measure the decline in cure potential for loans
in serious delinquency for multiple years.

There are also many loans still subject to servicer review of previous foreclosure actions, under the
National Mortgage Settlement. That Settlement was reached in mid 2012. In addition to requirements for
new evaluations of borrower assistance and review of previous foreclosure actions, the Settlement
resulted in payments of $1.1 billion to HUD for anticipated costs of faulty foreclosures and claims.
Though such funds do not directly reduce the LLG, they provide a cash offset. Likewise, the primary
effect of premium rate increases in 2012 is not on the 2012 LLG calculation, but rather on future LLG
calculations and HUD’s ability to re-establish the statutory two percent capital ratio for the MMI Fund.
Internal calculations show that premium rate changes since 2009 have resulted in a $10 billion
improvement in MMI Fund financial status at this time. The effect of the current premium structure as
opposed to that which existed prior to 2009 on just the upcoming FY2013 cohort is estimated to be
another $10 billion.

GI/SRI Home Equity Conversion Mortgage (HECM) - HECM endorsements from fiscal years 1990-2008
remain in the GI/SRI Fund. The liability for these loans increased from $7,865 million at the end of FY
2011 to $12,242 million at the end of FY 2012. This change was primarily due to the same factors
mentioned above for MMI Fund HECM loans. Loans remaining in the GI/SRI fund did benefit this year
from continued slower UPB (Unpaid Principal Balance) growth due to lower current and future
(projected) interest rates for adjustable-rate mortgages. Over 99 percent of the remaining GI/SRI HECM
loans have adjustable interest rates.

GI/SRI Section 223(f) - Section 223(f) of the National Housing Act permits FHA mortgage insurance for
the refinance or acquisition of existing multifamily rental properties consisting of five or more
units. Under this program, FHA may insure up to 85 percent of the lesser of the project’s appraised value
or its replacement cost. Projects insured under the program must be at least three years old. The Section
223(f) program is the largest multifamily program in the GI/SRI Fund with an insurance-in-force of $20
billion. The Section 223(f) liability is negative, meaning that the present value of expected future
premium revenues is greater than the present value of expected future (net) claim expenses. The 223(f)
liability decreased this year by $246 million, from ($280) million to ($526) million, and principally due to
lower claim expectations and an additional $5.8 billion of FY 2012 endorsements.

GI/SRI Section 223(a)(7) - Section 223(a)(7) gives HUD authority to insure refinance mortgages that
replace loans currently guaranteed by FHA. Under this program, the principal amount of the new
mortgage may be no more than the lesser of the original amount of the prior mortgage and the remaining
unpaid principal balance of that loan. Commercial property loans insured under any sections of the
National Housing Act may be refinanced under 223(a)(7), including those already under 223(a)(7). The
Section 223(a)(7) program is the second largest multifamily program with an insurance-in-force of $15.5
billion. The Section 223(a)(7) liability is negative, meaning that the present value of expected future
premium revenues is greater than the present value of expected future (net) claim expenses. The 223(a)(7)
liability decreased this year by $170 million, from ($273) million to ($443) million, principally due to
lower claim expectations and an additional $4.3 billion of endorsements in FY 2012.

GI/SRI Section 221(d)(4) - Section 221(d)(4) of the National Housing Act authorizes FHA mortgage
insurance for the construction or substantial rehabilitation of multifamily rental properties with five or
more units. Under this program, FHA may insure up to 90 percent of the total project cost. This is the
third largest multifamily program in the GI/SRI Fund, with an insurance-in-force of $12 billion. The
Section 221(d)(4) liability increased by $24 million this year, from ($10) million to $14 million. This was
principally due to lower premium revenue expectations resulting from increased projected prepayment
speeds caused by historically low interest rates.


                                                    50
                                                                                              2013-FO-0002


GI/SRI Section 232 Healthcare New Construction (NC) - The Section 232 NC program provides
mortgage insurance for construction or substantial rehabilitation of nursing homes and assisted-living
facilities. FHA insures a maximum of 90 percent of the estimated value of the physical improvements
and major movable equipment. The Section 232 NC program has an insurance-in-force of $4
billion. The Section 232 NC liability decreased by $22 million from ($16) million in FY 2011 to ($38)
million in FY 2012 due to improved recovery rate expectations and lower projected prepayments. A
negative LLG value means that FHA anticipates that future premium revenues will be larger than net
credit expenses of the current, active insured portfolio.

GI/SRI Section 232 Healthcare Purchasing or Refinancing - The Section 232 Refinance program
provides mortgage insurance for two purposes: purchasing or refinancing of projects that do not need
substantial rehabilitation, and installation of fire safety equipment for either private, for-profit businesses
or non-profit associations. For existing projects, FHA insures a maximum of 85 percent of the estimated
value of the physical improvements and major movable equipment. The Section 232 Refinance program
has an insurance-in-force of $17 billion. Its LLG decreased by $115 million, from ($143) million in FY
2011 to ($258) million in FY 2012, due to lower claim expectations and significantly increased insurance-
in-force. New insurance commitments in FY 2012 were for $5.2 billion.

GI/SRI Section 242 Hospitals - The Section 242 Hospitals program provides mortgage insurance for the
construction, substantial rehabilitation, or refinance of hospitals and/or the purchase of major hospital
equipment to either private, for-profit businesses, or non-profit associations. FHA insures a maximum of
90 percent of the estimated replacement cost of the hospital, including the installed equipment. The
Section 242 program has an insurance-in-force of $8.6 billion. The Section 242 liability decreased by $23
million from ($193) million in FY 2011 to ($216) million in FY 2012 due to revised loan performance
modeling and a slightly higher insurance-in-force.

Risks to LLG Calculations

LLG calculations for most major programs now use Monte Carlo simulations and stochastic economic
forecasts. What is booked as an LLG value is the average or arithmetic “mean” value from a series of
projections that view loan portfolio performance under a large variety of possible economic
circumstances. The individual economic-scenario forecasts are designed to mimic the types of movements
in factors such as home prices, interest rates, and apartment vacancy rates that have actually occurred in
the historical record. By creating a large number of these scenarios, each independent of the others, one
creates a universe of potential outcomes that define the possible set of LLG values in an uncertain world.
Using the mean value across all forecast scenarios is valuable for providing some consideration for “tail
risk.” Tail risk occurs in most loan guarantee portfolios because potential losses under the worst scenarios
are multiples of potential gains under the best scenarios. The size of that multiple creates an addition to
LLG, which is the difference between the mean value from the simulations and the median value. The
median is the point at which half of the outcomes are worse and half are better. By booking a mean value
rather than a median, FHA is essentially providing some additional protection in its loss reserves against
adverse outcomes. At the same time, booking an LLG based on a mean value results in a better than even
chance future revisions will be in the downward direction. Comparisons of mean-value results to
indicators of the range of possible outcomes from the Monte Carlo simulations for Single Family forward
and HECM mortgages in the MMI LLG are shown in the table below. The representative outcomes
shown there are for the inter-quartile range (25th and 75th percentiles), and a standard indicator of “tail”
outcomes (95th percentile).




                                                      51
                                                                                         2013-FO-0002


                    Range of LLG Values Found in Monte Carlo Simulations 
                                          (all dollars in millions)
                                25th                                    75th                95th 
      Program Area 
                           Percentile                   Mean          Percentile          Percentile 
                                                MMI Fund
 Single‐Family Forward 
 Mortgages                        $ 30,698                 $ 37,105       $ 43,275             $ 53,327 
 Single Family Reverse                    $  
 Mortgages (HECM)              3,790                      $    5,548      $   6,815            $ 10,744 
 Total                           $  34,488                $  42,653       $ 50,090             $ 64,071

The uncertainty built into Monte Carlo forecasts is only for economic risk, and not for model risk. Model
risk is the chance that the actual forecasting equations could be outdated because: 1) borrower behavioral
patterns are changing, 2) they might not give the best predictions under economic conditions rare in the
past but expected to be more prevalent in the present and/or future, or 3) some mis-specification in how
variables are calculated or the types of forecasting equations used. Each year, FHA undergoes an
evaluation of these factors with the various contractors that support loan-performance forecast model
development. There is a continuous cycle of improvement, whereby lessons learned from the most recent
round of annual portfolio valuations—in the independent actuarial study, the LLG valuations, and the
President’s Budget—are used as a basis for new research and model development in the next year.

This fiscal year, the Mutual Mortgage Insurance Fund capital reserve ratio fell below zero to -1.44
percent. While this point-in-time valuation of the economic net worth of FHA’s portfolio is obviously of
concern, it does not mean that FHA will have to request permanent indefinite authority from the
Treasury. Any required draw would be determined not by the economic assumptions of this review but
those used in the President’s budget released in February. The FY 2012 year-end capital reserve balance
was $3.3 billion. It should be noted that the economic value of the MMI fund does not take into
consideration revenues generated after FY 2012. Any upward re-estimate of the FY 2012 LGL using the
economic assumptions from the budget would be paid for in FY 2013 with the balance of funds in the
capital reserve plus the negative subsidy that will be generated from the FY 2013 book of business.

At this point in the economic cycle, with demand for rental units high, and loans refinancing to
historically low interest rates, near term risks to the multifamily LLG calculation appear to be low.
However, over the longer term, risks come from many sources--changes in population growth and
household formation, the supply of rental housing in each market where FHA has a presence, and local
employment conditions. Risks also come from FHA’s policy of insuring loans pre-construction in its
221(d)(4) program. LLG calculations are then subject to risk from the abilities of new projects to find
viable markets when they do come on-line. New construction loans approved in 2007 – 2009 have now
gone through several annual rounds of rentals to prove market viability. The combined 2010-2012
cohorts, which are just now starting to come into rent-up, are more than twice as large as 2007-2009, by
dollar volume. Valuations of the newer portfolio are dependent upon continued trends in rental vacancy
rates and rental-price growth.

For Healthcare programs (Sections 232 and 242), LLG risk comes principally from health-care
reimbursement rates from Medicare and Medicaid. In addition, the financial health of State and Municipal
government entities also is a source of LLG risk, as many of the FHA-insured projects benefit, in part,
from periodic cash infusions from those entities. Risk also varies as does the quality of business
management at each facility, and from the supply of medical care in each community relative to demand



                                                   52
                                                                                         2013-FO-0002

and the abilities of facility management to adapt to changing technologies and the competitive landscape.
These are factors for which it is difficult to predict future trends.

Pre-Credit Reform Valuation Methodology

FHA values its Pre-Credit Reform related notes and properties in inventory at net realizable value,
determined on the basis of net cash flows. To value these items, FHA uses historical claim data, revenues
from premiums and recoveries, and expenses of selling and maintaining property.

MMI Single Family LLR For the single family portfolio, the remaining insurance-in-force for pre-credit
reform loans is $3.5 billion. The aggregate liability for the remaining pre-credit reform loans in FY 2012
is $11 million, which is a $7 million increase from the $18 million estimate in FY 2011.

GI/SRI Multifamily & Healthcare LLR - For the Multifamily and Healthcare portfolio, the remaining
insurance-in-force for pre-credit reform loans is $1.2 billion. The aggregate liability for the remaining
pre-credit reform loans in FY 2012 is ($1.5) million, which is a $6.5 million decrease from the $5 million
estimate in FY 2011. The year-over-year decrease in aggregate liability is due to lower prepayment
expectations for the remaining loans compared with those for loans that terminated or matured in the past
year.




                                                   53
                                                                                             2013-FO-0002


Note 7. Other Assets

The following table presents the composition of Other Assets held by FHA as of September 30, 2012
and 2011:

           (Dollars in millions)
                                                                          FY 2012         FY2011
           Intragovernmental:
            Advances to HUD for Working Capital Fund Expenses         $             3 $            3
           Total                                                      $             3 $            3

           With the Public:
            Escrow Monies Deposited at Minority-Owned Banks           $         55 $           66
            Deposits in Transit                                                  5              3
           Total                                                      $         60 $           69



Advances to HUD for Working Capital Fund Expenses

The Working Capital Fund was established by HUD to consolidate, at the department level, the
acquisition of certain property and equipment to be used by different organizations within HUD.
Advances to HUD for Working Capital Fund expenses represent the amount of payments made by FHA
to reimburse the HUD Working Capital Fund for its share of the fund’s expenses prior to the receipt of
goods or services from this fund.

Escrow Monies Deposited at Minority-Owned Banks

FHA holds in trust escrow monies received from the borrowers of its multifamily mortgage notes to cover
property repairs and renovations expenses. These escrow monies are deposited at the U.S. Treasury (see
Note 2), invested in U.S. Treasury securities (see Note 4 - GI/SRI Investments) or deposited at minority-
owned banks.

Deposits in Transit

Deposits in Transit is cash that has not been confirmed as being received by the U.S. Treasury. Once the
U.S. Treasury has confirmed that this cash has been received, the cash will be moved from Deposits in
Transit to Fund Balance with U.S. Treasury.




.



                                                   54
                                                                                        2013-FO-0002


Note 8. Accounts Payable

Accounts Payable as of September 30, 2012 and 2011 are as follows:

(Dollars in millions)

                                                         FY 2012       FY2011


Intragovernmental:
Claims Payable to Ginnie Mae                                    $6 $         -
Total                                                           $6          $0



                                                          FY 2012      FY2011

With the Public:
 Claims Payable                                               $503 $      474
 Premium Refunds Payable                                       143        142
 Single Family Property Disposition Payable                     42         79
 Miscellaneous Payables                                         33         28
Total                                                        $721 $       723



Claims Payable

Claims payable represents the amount of claims that have been processed by FHA, but the disbursement
of payment to lenders has not taken place at the end of the reporting period.

Premium Refunds

Premium refunds payable are refunds of previously collected Single Family premiums that will be
returned to the borrowers resulting from prepayment of the insured mortgages.

Single Family Property Disposition Payable

Single family property disposition payable includes management and marketing contracts and other
property disposition expenses related to foreclosed property.

Miscellaneous Payables

Miscellaneous payables include interest enhancement payables, interest penalty payables for late payment
of claims, generic debt payables and other payables related to various operating areas within FHA.




                                                  55
                                                                                                2013-FO-0002


Note 9. Debt

The following tables describe the composition of Debt held by FHA as of September 30, 2012 and 2011:

(Dollars in millions)
                                                            FY2011                                       FY 2012
                                        Beginning
                                         Balance       Net Borrowing     Ending Balance    Net Borrowing      Ending Balance

Agency Debt:
   Debentures Issued to Claimants   $               10 $             -   $           10    $             (10) $                -
Other Debt:
   Borrowings from U.S. Treasury               4,749              1,283            6,032             5,495              11,527
   Total                            $         4,759 $            1,283 $          6,042    $        5,485 $            11,527

                                                                                               FY 2012             FY2011
Classification of Debt:
    Intragovernmental Debt                                                                 $        11,527 $             6,032
    Debt Held by the Public                                                                              -                  10
    Total                                                                                  $       11,527 $             6,042


Debentures Issued to Public

The National Housing Act authorizes FHA, in certain cases, to issue debentures in lieu of cash to settle
claims. FHA-issued debentures bear interest at rates established by the U.S. Treasury. There are no
debentures outstanding at the end of FY 2012. The interest rates related to the outstanding debentures in
FY 2011 ranged from 4.00 percent to 13.375 percent. Lenders may redeem FHA debentures prior to
maturity in order to pay mortgage insurance premiums to FHA, or they may be called with the approval
of the Secretary of the U.S. Treasury.

The par value of debentures outstanding, not including accrued interest, as of September 30, 2011 was
$10.3 million. The fair value for fiscal year 2011 was $21 million.

Borrowings from U.S. Treasury

In accordance with Credit Reform accounting, FHA borrows from the U.S. Treasury when cash is needed
in its financing accounts. Usually, the need for cash arises when FHA has to transfer the negative credit
subsidy amounts related to new loan endorsements and existing loan modifications from the financing
accounts to the general fund receipt account (for cases in GI/SRI funds) or to the capital reserve account
(for cases in MMI/CMHI funds). In some instances, borrowings are also needed to transfer the credit
subsidy related to downward reestimates when available cash is less than claim payments due.

During fiscal year 2012, FHA’s U.S. Treasury borrowings carried interest rates ranging from 1.68 percent
to 7.39 percent. In fiscal year 2011, they carried interest rates ranged from 2.42 percent to 7.59 percent.
The maturity dates for these borrowings occur from September 2017 – September 2032. Loans may be
repaid in whole or in part without penalty at any time prior to maturity.




                                                           56
                                                                                        2013-FO-0002


Note 10. Other Liabilities

The following table describes the composition of Other Liabilities as of September 30, 2012 and 2011:

                       (Dollars in millions)

                       FY 2012                                        Current
                       Intragovernmental:
                        Receipt Account Liability                          3,473
                       Total                                      $       3,473

                       With the Public:
                        Trust and Deposit Liabilities             $          88
                        Multifamily Notes Unearned Revenue                  234
                        Miscellaneous Liabilities                            74
                       Total                                      $         396

                       FY2011                                         Current
                       Intragovernmental:
                        Receipt Account Liability                          3,051
                       Total                                      $       3,051

                       With the Public:
                        Trust and Deposit Liabilities             $         111
                        Multifamily Notes Unearned Revenue                  230
                        Disbursements in Transit                             75
                        Miscellaneous Liabilities                            14
                       Total                                      $         430



Receipt Account Liability

The receipt account liability is created from negative credit subsidy from new endorsements, downward
credit subsidy reestimates, loan modifications, and unobligated balances from the liquidating account in
the GI/SRI receipt account. A corresponding amount of Fund Balance with Treasury is classified as a
non-entity asset.

Trust and Deposit Liabilities

Trust and deposit liabilities include mainly escrow monies received by FHA for the borrowers of its
mortgage notes and earnest money received from potential purchasers of the FHA foreclosed properties.
The escrow monies are eventually disbursed to pay for insurance, property taxes, and maintenance
expenses on behalf of the borrowers. The earnest money becomes part of the sale proceeds or is returned
to any unsuccessful bidders.

Disbursements in Transit




                                                    57
                                                                                         2013-FO-0002

Disbursements in Transit is cash that has not been confirmed as being disbursed by the U.S. Treasury.
Once the U.S. Treasury has confirmed that this cash has been disbursed, the cash will be removed from
Disbursements in Transit and taken out of Fund Balance with U.S. Treasury.
Multifamily Notes Unearned Revenue

Multifamily Notes Unearned Revenue primarily includes the deferred interest revenue on Multifamily
notes that are based on work out agreements with the owners. The workout agreements defer payments
from the owners for a specified time but, the interest due on the notes is still accruing and will also be
deferred until payments resume.

Miscellaneous Liabilities

Miscellaneous liabilities mainly include unearned premium revenue and may include loss contingencies
that are recognized by FHA for past events that warrant a probable, or likely, future outflow of
measurable economic resources.




                                                   58
                                                                                            2013-FO-0002



Note 11. Commitments and Contingencies

Litigation

FHA is party in various legal actions and claims brought by or against it. In the opinion of management
and general counsel, the ultimate resolution of these legal actions will not have a material effect on FHA’s
consolidated financial statements as of September 30, 2012. There are pending or threatened legal actions
where judgment against FHA is reasonably possible with an estimated potential loss of $101 million or
more. In addition, there are legal actions where judgment is probable but FHA is unable to estimate the
amount or range of the potential loss. Therefore, no amount is being accrued.

Related Party

As of September 30, 2012 and 2011, the Government National Mortgage Association (Ginnie Mae),
another component of HUD, held defaulted FHA-insured mortgage loans. These loans, acquired from
defaulted mortgage-backed securities issuers, had the following balances:


                                                            FY 2012           FY 2011
                                                          (in millions)     (in millions)
                 Mortgages Held for Investment                   $6,210            $5,886
                 Foreclosed Properties (Pre-Claim)                 $829              $568
                 Short Sale Claims Receivable                       $15               $25


Ginnie Mae may submit requests for foreclosure on short sale claim payments to FHA for some or all of
these loans. The foreclosure properties represent post foreclosure FHA insured loans where properties
have not yet been conveyed and the claims filled. Subject to all existing claim verification controls, FHA
would pay such claims to Ginnie Mae upon conveyance of the foreclosed property to FHA. Any liability
for such claims, and offsetting recoveries, has been reflected in the Loan Guaranty Liability on the
accompanying financial statements based on the default status of the insured loans.




                                                    59
                                                                                           2013-FO-0002


Note 12. Gross Costs

Gross costs incurred by FHA for the period ended September 30, 2012 and 2011 are as follows:


               (Dollars in millions)

                                                             FY2012 Total      FY2011 Total
               Intragovernmental:
                 Interest Expense                        $           463 $             412
                 Imputed Cost                                         15                18
                 Other Expenses                                       14                 5
               Total                                     $           492 $             435

               Withthe Public:
                Salary and Administrative Expense        $             633 $             668
                Subsidy Expense                                     14,653               605
                Interest Expense                                     6,532             2,658
                Interest Accumulation Expense                        1,417             1,388
                Bad Debt Expense                                      (303)             (160)
                Loan Loss Reserve                                      (16)              (20)
                Other Expenses                                         115               123
               Total                                     $         23,031 $           5,262

               Total Gross Costs                         $         23,523 $           5,697

Interest Expense

Intragovernmental interest expense includes interest expense on borrowings from the U.S. Treasury in the
financing account. Interest expense is calculated annually for each cohort using the interest rates
provided by the U.S Treasury. Interest expense with the public consists of interest expense on debentures
issued to claimants to settle claim payments and interest expense on the annual credit subsidy reestimates.

Interest Accumulation Expense

Interest accumulation expense is the net of interest expense on borrowing and interest revenue in the
financing accounts for MMI/CMHI and GI/SRI.

Imputed Costs/Imputed Financing

Imputed costs represent FHA’s share of the departmental imputed cost calculated and allocated to FHA
by the HUD CFO office. Federal agencies are required to report imputed costs under SFFAS No. 4,
Managerial Cost Accounting Concepts and Standards, and SFFAS No. 30, Inter-Entity Cost
Implementation: Amending SFFAS 4, Managerial Cost Accounting Standards and Concepts to account



                                                    60
                                                                                        2013-FO-0002

for costs assumed by other Federal organizations on their behalf. The HUD CFO receives its imputed
cost data from the Office of Personnel Management (OPM) for pension costs, federal employee health
benefits (FEHB) and life insurance costs. It also receives Federal Employees’ Compensation Act (FECA)
costs from the Department of Labor (DOL). Subsequently, using its internally developed allocation basis,
HUD CFO allocates the imputed cost data to each of its reporting offices. The imputed costs reported by
FHA in its Statements of Net Cost are equal to the amounts of imputed financing in its Statements of
Changes in Net Position.

Salary and Administrative Expenses

Salary and administrative expenses include FHA’s reimbursement to HUD for FHA personnel costs and
FHA’s payments to third party contractors for administrative contract expenses. Beginning in fiscal year
2010 and going forward, FHA is only using the MMI annual program fund to record salaries and related
expenses other than those relating to the H4H program.

Subsidy Expense

Subsidy expense, positive and negative, consists of credit subsidy expense from new endorsements,
modifications, and annual credit subsidy reestimates and the subsidy expense incurred by the Church
Arson program. Credit subsidy expense is the estimated long-term cost to the U.S. Government of a
direct loan or loan guarantee, calculated on a net present value basis of the estimated future cash flows
associated with the direct loan or loan guarantee.

Bad Debt Expense

Bad debt expense represents the provision for loss recorded for uncollectible amounts related to FHA’s
pre-1992 accounts receivable and credit program assets. FHA calculates its bad debt expense based on
the estimated change of these assets’ historical loss experience and FHA management’s judgment
concerning current economic factors.

Loan Loss Reserve Expense

Loan loss reserve expense is recorded to account for the change in the balance of the loan loss reserve
liabilities associated with FHA’s pre-1992 loan guarantees. The loan loss reserve is provided for the
estimated losses incurred by FHA to pay claims on its pre-1992 insured mortgages when defaults have
taken place but the claims have not yet been filed with FHA.

Other Expenses

Other expenses with the public include only those associated with the FHA pre-1992 loan guarantees.
They consist of net losses or gains on sales of FHA credit program assets, insurance claim expenses, fee
expenses, and other miscellaneous expenses incurred to carry out FHA operations.                  Other
intragovernmental expenses include FHA’s share of HUD expenses incurred in the Working Capital Fund
and expenses from intra-agency agreements.




                                                   61
                                                                                       2013-FO-0002



Note 13. Earned Revenue

Earned revenues generated by FHA for the period ended September 30, 2012 and 2011 are as follows:

(Dollars in millions)                                          FY 2012               FY 2011
                                                                Total                 Total
Intragovernmental:
 Interest Revenue from Deposits at U.S. Treasury        $                 1,881 $            1,799
 Interest Revenue from MMI/CMHI Investments                                 117                173
 Gain on Sale of MMI/CMHI Investments                                     1,116                133
Total Intragovernmental                                 $                3,114 $            2,105

With the Public:
 Insurance Premium Revenue                              $                    9   $             13
 Income from Notes and Properties                                           82   $             55
 Other Revenue                                                              21   $              5
Total With the Public                                   $                  112   $             73

Total Earned Revenue                                    $                3,226   $          2,178



Interest Revenue

Intragovernmental interest revenue includes interest revenue from deposits at the U.S. Treasury and
investments in U.S. Treasury securities. FHA’s U.S. Treasury deposits are generated from post-1991 loan
guarantees and direct loans in the financing accounts. FHA’s investments in U.S. Treasury securities
consist of investments of surplus resources in the MMI/CMHI Capital Reserve account and of escrow
monies collected from borrowers in the GI/SRI liquidating accounts.

Interest revenue with the public is generated mainly from FHA’s acquisition of pre-1992 performing
MNA notes as a result of claim payments to lenders for defaulted guaranteed loans. Interest revenue
associated with the post-1991 MNA notes is included in the Allowance for Subsidy (AFS) balance.

Gain on Sale of MMI/CMHI Investments

This gain occurred as a result of the sale of investments before maturity in the MMI/CMHI Capital
Reserve account because the sales price of the investments was greater than the book value of the
investments at the time of the sale.

Premium Revenue

According to the FCRA accounting, FHA’s premium revenue includes only premiums associated with the
pre-1992 loan guarantee business. Premiums for post-1991 guarantee loans are included in the balance of
the LLG. The FHA premium structure includes both up-front premiums and annual periodic premiums.




                                                   62
                                                                                         2013-FO-0002

Up-front Premiums

The up-front premium rates vary according to the mortgage type and the year of origination. The FHA up-
front premium rates in fiscal year 2012 were:

                                Upfront Premium Rates
Single Family:
10/1/2011 - 4/9/2012            1.00%
4/9/2012 - Current              1.75%
Multifamily                     0.25%, 0.45%, 0.50%,0.80% or 1.00%
HECM Standard                   2.00% (Based on Maximum Claim Amount)
HECM Saver                      0.01% (Based on Maximum Claim Amount)

Annual Periodic Premiums

The periodic premium rate is used to calculate monthly or annual premiums. These rates also vary by
mortgage type and program. The FHA annual periodic premium rates in fiscal year 2012 were:

                                Annual Periodic Premium Rates
Single Family:
10/1/2011 - 6/10/2012           1.10% or 1.15%
6/11/2012 -9/30/2012            1.20%, 1.25%, 1.45%, or 1.50%
Multifamily                     0.45%, 0.50%,0.570% or 0.80%
HECM (Standard and Saver)       1.25%

For Title I, the maximum insurance premium paid for guaranteed cases endorsed in years 1992 through
2001 is equal to 0.50 percent of the loan amount multiplied by the number of years of the loan term. The
annual insurance premium for a Title I Property Improvement loan is 0.50 percent of the loan amount
until the maximum insurance charge is paid. The annual insurance premium of a Title I Manufactured
Housing loan is calculated in tiers by loan term until the maximum insurance charge is paid. For
guaranteed cases endorsed in fiscal year 2012, the Title I annual insurance premium is 1.00 percent of the
loan amount until maturity.

Income from Notes and Property

Income from Notes and Property includes revenue associated with FHA pre-1992 loan guarantees. This
income includes revenue from Notes and Properties held, sold, and gains associated with the sale.

Other Revenue

Other revenue includes revenue associated with FHA pre-1992 loan guarantees. FHA’s other revenue
consists of late charges and penalty revenue, fee income, and miscellaneous income generated from FHA
operations.




                                                   63
                                                                                   2013-FO-0002



Note 14. Gross Cost and Earned Revenue by Budget Functional Classification

FHA cost and earned revenue reported on the Statements of Net Cost is categorized under the budget
functional classification (BFC) for Mortgage Credit (371). All FHA U.S. Treasury account symbols
found under the department code “86” for Department of Housing and Urban Development appear with
the Mortgage Credit BFC.




                                               64
                                                                                             2013-FO-0002



Note 15. Transfers

Transfers in/out incurred by FHA for the period ended September 30, 2012 and 2011 are as follows:

                (Dollars in millions)

                                        Cumulative
                 Budgetary Financing                     Unexpended
                                        Results of                          Total
                      Sources                          Appropriations
                                        Operations
                             Treasury $          (395) $             - $             (395)
                                 HUD                -              (72)               (72)
                        FY 2012 Total $         (395) $            (72) $           (467)



                                        Cumulative
                  Other Financing                        Unexpended
                                        Results of                          Total
                     Sources                           Appropriations
                                        Operations
                             Treasury $        (1,025) $             - $        (1,025)
                                 HUD              544                -             544
                        FY 2012 Total $         (481) $              - $         (481)



                                        Cumulative
                 Budgetary Financing                     Unexpended
                                        Results of                          Total
                      Sources                          Appropriations
                                        Operations
                             Treasury $          (492) $             - $             (492)
                                 HUD                -              (72)               (72)
                         FY2011 Total $         (492) $            (72) $           (564)

                                        Cumulative
                  Other Financing                        Unexpended
                                        Results of                          Total
                     Sources                           Appropriations
                                        Operations
                             Treasury $        (1,796) $             - $         (1,796)
                                 HUD              567                -              567
                         FY2011 Total $       (1,229) $              - $        (1,229)



Transfers Out to U.S. Treasury
Transfers out to U.S. Treasury consist of negative subsidy from new endorsements, modifications and
downward credit subsidy reestimates in the GI/SRI general fund receipt account.

Transfers In/Out From HUD
FHA does not receive an appropriation for salaries and expense; instead the FHA amounts are
appropriated directly to HUD. In order to recognize these costs in FHA’s Statement of Net Cost, a
Transfer In from HUD is recorded based on amounts computed by HUD. FHA continues to make a non-
expenditure Transfer Out to HUD for Working Capital Fund expenses.




                                                  65
                                                                                               2013-FO-0002



Note 16. Unexpended Appropriations

Unexpended appropriation balances at September 30, 2012 and 2011 are as follows:

(Dollars in millions)
                                 Beginning    Appropriations     Other      Appropriations
FY 2012                           Balance       Received      Adjustments       Used        Transfers-Out Ending Balance
Positive Subsidy               $          465 $            - $            - $           (1) $           - $          464
Working Capital and Contract
Expenses                                317              207            (24)          (119)           (72)          309
Reestimates                               -              746              -           (746)             -             -
GI/SRI Liquidating                       68               30              -             (9)             -            89
Total                          $        850 $            983 $         (24) $        (875) $         (72) $         862



                                 Beginning    Appropriations     Other      Appropriations
FY2011                            Balance       Received      Adjustments       Used        Transfers-Out Ending Balance
Positive Subsidy               $          468 $            9 $            - $          (12) $           - $          465
Working Capital and Contract
Expenses                                314             207             (25)          (106)           (72)          318
Reestimates                               -           3,024               -         (3,024)             -             -
GI/SRI Liquidating                       98              71               -           (102)             -            67
Total                          $        880 $        3,311 $           (25) $      (3,244) $         (72) $         850



As required under FCRA, FHA receives appropriations to cover expenses or fund shortages related to its
loan guarantee and direct loan operations.

FHA receives appropriations in the program accounts for administrative and contract expenses. The
GI/SRI and H4H no-year program accounts also receive appropriations for positive credit subsidy and
upward reestimates. Additionally, FHA obtains permanent indefinite appropriations to cover any
shortfalls for its GI/SRI pre-1992 loan guarantee operations.

When appropriations are first received, they are reported as unexpended appropriations. As these
appropriations are expended, appropriations used are increased and unexpended appropriations are
decreased. Additionally, unexpended appropriations are decreased when: administrative expenses and
working capital funds are transferred out to HUD; appropriations are rescinded; or other miscellaneous
adjustments are required.




                                                    66
                                                                                          2013-FO-0002


Note 17. Budgetary Resources

The SF-133 and the Statement of Budgetary Resources for fiscal year 2011 have been reconciled to the
fiscal year 2011 actual amounts included in the Program and Financing Schedules presented in the Budget
of the United States Government. There were no significant reconciling items. Information from the
fiscal year 2012 Statement of Budgetary Resources will be presented in the fiscal year 2014 Budget of the
U.S. Government. The Budget will be transmitted to Congress on the first Monday in February 2013 and
will be available from the Government Printing Office and online at that time.

Obligated balances as of September 30, 2012 and 2011 are as follows:

        Unpaid Obligations

                (Dollars in Millions)
                Undelivered Orders                        FY 2012        FY2011
                 MMI/CMHI                               $        1,631 $       1,495
                 GI/SRI                                            403           403
                 H4H                                                 1             1
                 EI                                                 40            12
                 TI                                                  3            12
                Undelivered Orders Subtotal             $       2,078 $       1,923

                Accounts Payable
                 MMI/CMHI                               $         613 $             813
                 GI/SRI                                           514               321
                 H4H                                                -                 -
                 EI                                                 -                 -
                 TI                                                 -                 -
                Accounts Payable Subtotal               $       1,127 $           1,134

                Total                                   $       3,205    $        3,057




                                                   67
                                                                                            2013-FO-0002



Note 18. Budgetary Resources – Collections

During fiscal year 2012, FHA collected funds received from the National Servicing Settlement with the
Nation’s five largest loan servicers, as well as settlements from lenders as a result of increased monitoring
and enforcement actions.

The following table presents the composition of FHA’s collections for the period ended September 30,
2012 and 2011:

   (Dollars in Millions)
   FY 2012                                          MMI/CMHI          GI/SRI        H4H          Total
   Collections:
    Premiums                                         $      8,827 $        803 $          1 $        9,631
    Notes                                                      41          522            -            563
    Property                                                6,656          322            -          6,978
    Interest Earned from U.S. Treasury                      2,747          405            1          3,153
    Subsidy                                                 5,582            1            -          5,583
    Reestimates                                            19,523          746            -         20,269
    Collections from settlements                            1,119            -            -          1,119
    Other                                                      54           11            -             65
   Total                                             $    44,549 $       2,810 $          2 $      47,361



   FY2011                                           MMI/CMHI          GI/SRI        H4H          Total
   Collections:
    Premiums                                         $      7,745 $         784 $          2 $       8,531
    Notes                                                     123           438            -           561
    Property                                                6,158           310            -         6,468
    Interest Earned from U.S. Treasury                      1,588           540            -         2,128
    Subsidy                                                 6,739             1           11         6,751
    Reestimates                                             8,449         3,024            -        11,473
    Other                                                      48            77            1           126
   Total                                             $    30,850 $       5,174 $          14 $     36,038




                                                     68
                                                                                         2013-FO-0002



Note 19. Budgetary Resources – Non-expenditure Transfers

The following table presents the composition of FHA’s non-expenditure transfers for the period ended
September 30, 2012 and 2011:

                         (Dollars in Millions)
                         FY 2012                                     MMI/CMHI        Total
                         Transfers:
                         Working Capital and Contract Expenses   $          (72) $           (72)



                         (Dollars in Millions)
                         FY2011                                      MMI/CMHI        Total
                         Transfers
                         Working Capital and Contract Expenses   $          (72) $           (72)




                                                  69
                                                                                             2013-FO-0002


Note 20. Budgetary Resources – Obligations

The following table presents the composition of FHA’s obligations for the period ended September 30,
2012 and 2011:

(Dollars in Millions)
FY 2012                                                 MMI/CMHI        GI/SRI        H4H           EI/TI           Total
Obligations
 Claims                                                 $    18,104 $       2,196 $          1 $              - $     20,301
 Property Expenses                                            1,460            80             -               -        1,540
 Interest on Borrowings                                         305           159             -               -          464
 Subsidy                                                      5,582           438             -               -        6,020
 Downward Reestimates                                         5,655         2,216             -               -        7,871
 Upward Reestimates                                          13,868           746             -               -       14,614
 Admin, Contract and Working Capital                            124             -             -             31           155
 Other                                                            1           109             -               -          110
Total                                                   $   45,099 $       5,944 $           1 $            31 $     51,075



FY2011                                                  MMI/CMHI        GI/SRI        H4H           EI/TI           Total
Obligations
 Claims                                                 $    15,130 $       1,840 $           - $             - $     16,970
 Property Expenses                                            1,505            89             -               -        1,594
 Interest on Borrowings                                         236           177              -              -          413
 Subsidy                                                      6,740           511            11               -        7,262
 Downward Reestimates                                           847           542             -               -        1,389
 Upward Reestimates                                           7,601         3,024             -               -       10,625
 Admin, Contract and Working Capital                            113             -             -             29           142
 Other                                                           (1)          127             -               -          126
Total                                                   $   32,171 $       6,310 $          11 $            29 $     38,521




                                                  70
                                                                                             2013-FO-0002



Note 21. Reconciliation of Net Cost of Operations to Budget

This note (formerly the Statement of Financing) links the proprietary data to the budgetary data. Most
transactions are recorded in both proprietary and budgetary accounts. However, because different
accounting bases are used for budgetary and proprietary accounting, some transactions may appear in
only one set of accounts. The Reconciliation of Net Cost of Operations to Budget is as follows for the
period ended September 30, 2012 and 2011:

(Dollars in Millions)                                                                            FY 2012    FY 2011
RESOURCES USED TO FINANCE ACTIVITIES
 Obligations Incurred - SBR                                                                  $ 51,075 $ 38,521
 Spending Authority from Offsetting Collections and Recoveries - SBR                         $ (47,490)   (33,481)
 Offsetting Receipts - SBR                                                                   $ (2,611)     (1,033)
 Transfers In / Out - NP                                                                     $ (25,267)    (1,229)
 Imputed Financing from Costs Absorbed by Others                                             $      15         18
TOTAL RESOURCES USED TO FINANCE ACTIVITIES                                                   $ (24,278) $   2,796

RESOURCES THAT DO NOT FUND THE NET COST OF OPERATIONS
Undelivered Orders and Adjustments                                                           $    (154) $    (327)
Revenue and Other Resources                                                                     46,767     34,926
Purchase of Assets                                                                             (10,261)   (11,781)
Appropriation for prior year Re-estimate                                                       (14,614)   (10,625)
TOTAL RESOURCES NOT PART OF NET COST OF OPERATIONS                                           $ 21,738 $ 12,193

TOTAL RESOURCES USED TO FINANCE THE NET COST (SURPLUS) OF OPERATIONS $                             (2,540) $    14,989

COMPONENTS OF THE NET COST (SURPLUS) OF OPERATIONS THAT WILL NOT
REQUIRE OR GENERATE RESOURCES IN THE CURRENT PERIOD
Upward Re-estimate of Credit Subsidy Expense                                                 $     31,423 $ 14,973
Downward Re-estimate of Credit Subsidy Expense                                                     (4,260)   (4,494)
Changes in Loan Loss Reserve Expense                                                                   (3)      (28)
Changes in Bad Debt Expenses Related to Uncollectible Pre-Credit Reform Receivables                  (303)     (159)
Reduction of Credit Subsidy Expense from Endorsements and Modifications of Loan Guarantees         (5,977)   (7,228)
Gains or Losses on Sales of Credit Program Assets                                                      31        85
Other                                                                                               1,926   (14,619)
TOTAL COMPONENTS OF THE NET COST (SURPLUS) OF OPERATIONS THAT WILL
NOT REQUIRE OR GENERATE RESOURCES IN THE CURRENT PERIOD                                      $     22,837 $ (11,470)

NET COST (SURPLUS) OF OPERATIONS                                                             $     20,297   $    3,519




                                                          71
                                                                                          2013-FO-0002


Required Supplementary Information

Schedule A: Intragovernmental Assets

FHA's Intragovernmental assets, by federal entity, are as follows on September 30, 2012 and 2011:

   (Dollars in Millions)
                                                 Investments
                                  Fund Balance      in U.S.
                                     with U.S.     Treasury      Accounts
   FY 2012                           Treasury     Securities    Receivable Other Assets      Total
   U.S. Treasury                   $      47,640 $       2,775 $          - $         - $       50,415
   HUD                                         -             -            -          3               3
                   Total           $     47,640 $       2,775 $           - $        3 $       50,418

                                                 Investments
                                  Fund Balance      in U.S.
                                     with U.S.     Treasury      Accounts
   FY2011                            Treasury     Securities    Receivable Other Assets      Total
   U.S. Treasury                   $      42,006 $       4,135 $          - $         - $       46,141
   HUD                                         -             -            -          3               3
                   Total           $     42,006 $       4,135 $           - $        3 $       46,144




Schedule B: Intragovernmental Liabilities

FHA's Intragovernmental liabilities, by federal entity, are as follows on September 30, 2012 and 2011:

     (Dollars in Millions)

                                                       Borrowings
                                        Accounts        from U.S.        Other
     FY 2012                             Payable        Treasury       Liabilities        Total
     U.S. Treasury                  $              - $        11,527 $          3,473 $       15,000
     HUD                                           6               -                -              6
                     Total          $              6 $       11,527 $          3,473 $       15,006



                                                       Borrowings
                                        Accounts        from U.S.        Other
     FY2011                              Payable        Treasury       Liabilities        Total
     U.S. Treasury                  $              - $         6,032 $          3,051 $        9,083
     HUD                                           -               -                -              -
                     Total          $              - $        6,032 $          3,051 $        9,083




                                                     72
                                                                                                                                                     2013-FO-0002



Required Supplementary Information

Schedule C: Comparative Combining Statement of Budgetary Resources by FHA Program for
Budgetary September 30, 2012:
                                                                                                     MMI/CMHI                 MMI/CMHI           GI/SRI                            Budgetary
                                                                                                    Capital Reserve            Program          Program          Other              Total

Budgetary Resources:
Unobligated balance brought forward, October 1                                                  $               4,685     $           58    $          51    $        771      $       5,565
Unobligated balance brought forward, October 1, as adjusted                                                     4,685                 58               51             771              5,565
Recoveries of prior year unpaid obligations                                                                         -                 10                6              10                 26
Other changes in unobligated balance (+ or -)                                                                  (4,685)             4,677              (16)           (252)              (276)
Unobligated balance from prior year budget authority, net                                                           -              4,744               41             530              5,315
Appropriations (discretionary and mandatory)                                                                        -                135             746               31                912
Spending authority from offsetting collections (discretionary and mandatory)                                    3,309              9,185                -             243             12,737
Total budgetary resources                                                                       $              3,309      $      14,064     $        787     $       804       $     18,964

Status of Budgetary Resources:
Obligations incurred                                                                                                  -           13,991              746                153          14,890
Unobligated balance, end of year:
  Apportioned                                                                                                       -                 -               16                  43              59
  Unapportioned                                                                                                 3,309                72               25                 609           4,015
Total unobligated balance, end of year                                                                          3,309                73               41                 651           4,074
Total budgetary resources                                                                       $              3,309      $      14,064     $        787     $           804   $     18,964

Change in Obligated Balance:
Unpaid obligations, brought forward, October 1 (gross)                                                              -                145               16             576                 737
Uncollected customer payments from Federal sources, brought forward, October 1 (-)                                (19)                 -                -              (1)                (20)
Obligated balance, start of year (net), before adjustments (+ or -)                                               (19)               145               16             575                 717
Obligated balance, start of year (net), as adjusted                                                               (19)               145               16             575                 717
Obligations incurred                                                                                                -             13,991              746             153              14,890
Outlays (gross) (-)                                                                                                 -            (13,970)            (749)           (149)            (14,868)
Change in uncollected customer payments from Federal sources (+ or -)                                              18                  -                -               -                  18
Recoveries of prior year unpaid obligations (-)                                                                     -                (10)              (6)            (10)                (26)
Unpaid obligations, end of year (gross)                                                                             -                157                8             568                 733
Uncollected customer payments from Federal sources, end of year                                                    (1)                 -                -              (1)                 (2)
Obligated balance, end of year (net)                                                            $                  (1)    $         157     $           8    $       567       $         731

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                                                           3,309              9,320              746             274              13,649
Actual offsetting collections (discretionary and mandatory) (-)                                               (12,510)                 -                -            (256)            (12,766)
Change in uncollected customer payments from Federal sources (discretionary and mandatory) (+
or -)                                                                                                              18                  -               -                 -                 18
Budget authority, net (discretionary and mandatory)                                                            (9,183)             9,319             746                19                901
Outlays, gross (discretionary and mandatory)                                                                        -             13,970             749               149             14,868
Actual offsetting collections (discretionary and mandatory) (-)                                               (12,510)                 -               -              (256)           (12,766)
Outlays, net (discretionary and mandatory)                                                                    (12,510)            13,969             749              (106)             2,102
Distributed offsetting receipts (-)                                                                                 -                  -               -             2,611              2,611
Agency outlays, net (discretionary and mandatory)                                               $            (12,510)     $      13,969     $        749     $      2,505      $       4,713




                                                                                     73
                                                                                                                                                      2013-FO-0002



Required Supplementary Information

Schedule C: Comparative Combining Statement of Budgetary Resources by FHA Program for
Budgetary September 30, 2011:
                                                                                                      MMI/CMHI                 MMI/CMHI           GI/SRI                         Budgetary Total
                                                                                                     Capital Reserve            Program          Program           Other              Total

Budgetary Resources:
Unobligated balance brought forward, October 1                                                  $                4,375     $           35    $          57     $        790        $       5,257
Unobligated balance brought forward, October 1, as adjusted                                                      4,375                 35               57              790                5,257
Recoveries of prior year unpaid obligations                                                                          -                  8                5               71                   84
Other changes in unobligated balance (+ or -)                                                                   (4,375)             4,368              (18)            (202)                (227)
Unobligated balance from prior year budget authority, net                                                            -              4,411               45              658                5,114
Appropriations (discretionary and mandatory)                                                                         -                135            3,033               71                3,239
Spending authority from offsetting collections (discretionary and mandatory)                                     4,685              3,226                -              254                8,165
Total budgetary resources                                                                       $                4,685     $        7,772    $       3,078     $        983        $      16,518

Status of Budgetary Resources:
Obligations incurred                                                                                                   -            7,714            3,026                 213            10,953
Unobligated balance, end of year:
  Apportioned                                                                                                        -                 22               17                 183               222
  Unapportioned                                                                                                  4,685                 36               35                 587             5,343
Total unobligated balance, end of year                                                                           4,685                 58               52                 770             5,565
Total budgetary resources                                                                       $                4,685     $        7,772    $       3,078     $           983     $      16,518

Change in Obligated Balance:
Unpaid obligations, brought forward, October 1 (gross)                                                               -                132                27             613                  772
Uncollected customer payments from Federal sources, brought forward, October 1 (-)                                 (23)                 -                 -              (1)                 (24)
Obligated balance, start of year (net), before adjustments (+ or -)                                                (23)               132                27             612                  748
Obligated balance, start of year (net), as adjusted                                                                (23)               132                27             612                  748
Obligations incurred                                                                                                 -              7,714             3,026             213               10,953
Outlays (gross) (-)                                                                                                  -             (7,693)           (3,031)           (180)             (10,904)
Change in uncollected customer payments from Federal sources (+ or -)                                                4                  -                 -               -                    4
Recoveries of prior year unpaid obligations (-)                                                                      -                 (8)               (5)            (71)                 (84)
Unpaid obligations, end of year (gross)                                                                              -                145                16             576                  737
Uncollected customer payments from Federal sources, end of year                                                    (19)                 -                 -              (1)                 (20)
Obligated balance, end of year (net)                                                            $                  (19)    $          145    $           16    $        575        $         717

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                                                            4,685              3,361            3,033               325              11,404
Actual offsetting collections (discretionary and mandatory) (-)                                                 (7,915)                 -                -              (254)             (8,169)
Change in uncollected customer payments from Federal sources (discretionary and mandatory) (+ or                     4                  -                -                 -                   4
Budget authority, net (discretionary and mandatory)                                                             (3,226)             3,361            3,033                71               3,239
Outlays, gross (discretionary and mandatory)                                                                         -              7,693            3,031               180              10,904
Actual offsetting collections (discretionary and mandatory) (-)                                                 (7,915)                 -                -              (254)             (8,169)
Outlays, net (discretionary and mandatory)                                                                      (7,915)             7,693            3,031               (74)              2,735
Distributed offsetting receipts (-)                                                                                  -                  -                -             1,033               1,033
Agency outlays, net (discretionary and mandatory)                                                $              (7,915)    $        7,693    $       3,031     $      (1,107)      $       1,702




                                                                                     74
                                                                                                                                                2013-FO-0002



Required Supplementary Information

Schedule D: Comparative Combining Budgetary Resources by FHA Program for Non-Budgetary
September 30, 2012:

                                                                                                                                                                        Non
                                                                                                          MMI/CMHI               GI/SRI                            Budgetary Total
                                                                                                          Financing            Financing             Other             Total

Budgetary Resources:
Unobligated balance brought forward, October 1                                                        $         27,044     $           9,181     $           24    $        36,249
Unobligated balance brought forward, October 1, as adjusted                                                     27,044                 9,181                 24             36,249
Recoveries of prior year unpaid obligations                                                                        103                    19                  -                122
Unobligated balance from prior year budget authority, net                                                       27,147                 9,199                 25             36,371
Borrowing authority (discretionary and mandatory)                                                                5,200                   560                  -              5,760
Spending authority from offsetting collections (discretionary and mandatory)                                    31,887                 2,440                  2             34,329
Total budgetary resources                                                                             $        64,234      $         12,199      $           27    $       76,460

Status of Budgetary Resources:
Obligations incurred                                                                                            31,067                 5,117                  1             36,185
Unobligated balance, end of year:
  Apportioned                                                                                                   17,169                 1,167                 10             18,346
  Unapportioned                                                                                                 15,998                 5,915                 16             21,929
Total unobligated balance, end of year                                                                          33,167                 7,082                 26             40,275
Total budgetary resources                                                                             $        64,234      $         12,199      $           27    $       76,460

Change in Obligated Balance:
Unpaid obligations, brought forward, October 1 (gross)                                                            2,007                  313                  -              2,320
Uncollected customer payments from Federal sources, brought forward, October 1 (-)                                    -                   (1)                 -                 (1)
Obligated balance, start of year (net), before adjustments (+ or -)                                               2,007                  312                  -              2,319
Obligated balance, start of year (net), as adjusted                                                               2,007                  312                  -              2,319
Obligations incurred                                                                                             31,067                5,117                  1             36,185
Outlays (gross) (-)                                                                                             (31,041)              (4,870)                 -            (35,911)
Change in uncollected customer payments from Federal sources (+ or -)                                                 -                    1                  -                  1
Recoveries of prior year unpaid obligations (-)                                                                    (103)                 (19)                 -               (122)
Unpaid obligations, end of year (gross)                                                                           1,931                  541                  -              2,472
Obligated balance, end of year (net)                                                                  $          1,931     $            541      $            -    $        2,472

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                                                            37,087                3,000                  2             40,089
Actual offsetting collections (discretionary and mandatory) (-)                                                 (32,017)              (2,575)                (3)           (34,595)
Change in uncollected customer payments from Federal sources (discretionary and mandatory) (+ or -)                   -                    1                  -                  1
Budget authority, net (discretionary and mandatory)                                                               5,070                  425                  -              5,495
Outlays, gross (discretionary and mandatory)                                                                     31,041                4,870                  -             35,911
Actual offsetting collections (discretionary and mandatory) (-)                                                 (32,017)              (2,575)                (3)           (34,595)
Outlays, net (discretionary and mandatory)                                                                         (976)               2,294                 (2)             1,316
Agency outlays, net (discretionary and mandatory)                                                     $           (976)    $          2,294      $           (2)   $        1,316




                                                                                 75
                                                                                                                                                2013-FO-0002



Required Supplementary Information

Schedule D: Comparative Combining Budgetary Resources by FHA Program for Non-Budgetary
September 30, 2011:

                                                                                                          MMI/CMHI               GI/SRI                             Budgetary Total
                                                                                                          Financing            Financing             Other              Total

Budgetary Resources:
Unobligated balance brought forward, October 1                                                        $         27,321     $           7,319     $            9     $        34,649
Unobligated balance brought forward, October 1, as adjusted                                                     27,321                 7,319                  9              34,649
Recoveries of prior year unpaid obligations                                                                         18                     8                  -                  26
Other changes in unobligated balance (+ or -)                                                                        -                   (16)                 -                 (16)
Unobligated balance from prior year budget authority, net                                                       27,338                 7,311                 10              34,659
Appropriations (discretionary and mandatory)                                                                         -                     3                  1                   4
Borrowing authority (discretionary and mandatory)                                                                3,010                   828                  -               3,838
Spending authority from offsetting collections (discretionary and mandatory)                                    21,098                 4,204                 14              25,316
Total budgetary resources                                                                             $         51,446     $          12,346     $           25     $        63,817

Status of Budgetary Resources:
Obligations incurred                                                                                            24,402                 3,165                  1              27,568
Unobligated balance, end of year:
  Apportioned                                                                                                   12,488                   671                 11              13,170
  Unapportioned                                                                                                 14,556                 8,510                 13              23,079
Total unobligated balance, end of year                                                                          27,044                 9,181                 24              36,249
Total budgetary resources                                                                             $         51,446     $          12,346     $           25     $        63,817

Change in Obligated Balance:
Unpaid obligations, brought forward, October 1 (gross)                                                            1,558                  333                   -              1,891
Obligated balance, start of year (net), before adjustments (+ or -)                                               1,558                  333                   -              1,891
Obligated balance, start of year (net), as adjusted                                                               1,558                  333                   -              1,891
Obligations incurred                                                                                             24,402                3,165                   1             27,568
Outlays (gross) (-)                                                                                             (23,935)              (3,178)                  -            (27,113)
Change in uncollected customer payments from Federal sources (+ or -)                                                 -                   (1)                  -                 (1)
Recoveries of prior year unpaid obligations (-)                                                                     (18)                  (8)                  -                (26)
Unpaid obligations, end of year (gross)                                                                           2,007                  313                   -              2,320
Uncollected customer payments from Federal sources, end of year                                                       -                   (1)                  -                 (1)
Obligated balance, end of year (net)                                                                  $           2,007    $             314     $            (2)   $         2,319

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                                                            24,108                5,035                  15             29,158
Actual offsetting collections (discretionary and mandatory) (-)                                                 (22,913)              (4,941)                (15)           (27,869)
Change in uncollected customer payments from Federal sources (discretionary and mandatory) (+ or -)                   -                   (1)                  -                 (1)
Budget authority, net (discretionary and mandatory)                                                               1,195                   93                   -              1,288
Outlays, gross (discretionary and mandatory)                                                                     23,935                3,178                   -             27,113
Actual offsetting collections (discretionary and mandatory) (-)                                                 (22,913)              (4,941)                (15)           (27,869)
Outlays, net (discretionary and mandatory)                                                                        1,022               (1,763)                (15)              (756)
Distributed offsetting receipts (-)                                                                                   -                    -                   -                  -
Agency outlays, net (discretionary and mandatory)                                                     $           1,022    $          (1,763)    $           (15)   $          (756)




                                                                                 76
                                                                            2013-FO-0002



Other Accompanying Information



                              FEDERAL HOUSING ADMINISTRATION
          (AN AGENCY OF THE DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT)
                                     SCHEDULE OF SPENDING
                                      As of September 30 2012
                                             in millions


                                                                FY 2012
        What Money is Available to spend?
        Total Resources                                                   $95,424
        Less Amount Available but Not Agreed to be Spent                  $18,405
        Less Amount Not Available to be Spent                             $25,944
        Total Amounts Agreed to be Spent                                  $51,075

        How was the Money Spent?
        Category*
                 Claims                                         $         20,269
                 Property Expenses                              $          1,341
                 Interest on Borrowings                         $            464
                 Subsidy                                        $          5,978
                 Downward Reestimates                           $          7,872
                 Upward Reestimates                             $         14,614
                 Admin, Contract and Working Capital            $            116
                 Other                                          $            125


        Total Spending                                          $         50,779
        Amounts Remaining to be Spent                           $            296
        Total Amounts Agreed to be Spent                                  $51,075

        Who did the Money go to?
        For Profit                                              $         22,147
        Government                                              $         28,928
        Total Amounts Agreed to be Spent                        $         51,075




                                                 77
